<html>
<title> - S. Hrg. 107-707 THE PEACE CORPS</title>
<body><pre>[Senate Hearing 107-707]
[From the U.S. Government Printing Office]



 
                                                        S. Hrg. 107-707
                             THE PEACE CORPS
=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON WESTERN HEMISPHERE,
                   PEACE CORPS AND NARCOTICS AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 25, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate







                       U. S. GOVERNMENT PRINTING OFFICE
82-102                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



?

                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

               SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE
                      CORPS AND NARCOTICS AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman
BILL NELSON, Florida                 LINCOLN D. CHAFEE, Rhode Island
JOHN F. KERRY, Massachusetts         JESSE HELMS, North Carolina
RUSSELL D. FEINGOLD, Wisconsin       MICHAEL B. ENZI, Wyoming
JOSEPH R. BIDEN, Jr., Delaware       RICHARD G. LUGAR, Indiana

                                  (ii)

  




?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Coyne, John, Peace Corps volunteer in Ethiopia/Eritrea (1962-
  1964), New York City Regional Manager (1994-2000), co-founder, 
  the Peace Corps Fund, Pelham, NY...............................    42
    Prepared statement...........................................    43
Ferris, Barbara A., Peace Corps volunteer in Morocco (1980-1982); 
  Women in Development Coordinator (1987-1993), co-founder, the 
  Peace Corps Fund, Washington, DC...............................    38
    Prepared statement...........................................    40
Schneider, Mark, former Director, the Peace Corps; vice 
  president, International Crisis Group, Washington, DC..........    21
    Prepared statement...........................................    25
Shays, Hon. Christopher, U.S. Representative from the 4th 
  Congressional District of Connecticut..........................     4
Smith, Dane, Peace Corps volunteer in Ethiopia (1963-1965); 
  president, National Peace Corps Association, Washington, DC....    33
    Prepared statement...........................................    36
Vasquez, Hon. Gaddi H., Director, the Peace Corps, Washington, DC     5
    Prepared statement...........................................     8

                                 (iii)

  


                            THE PEACE CORPS

                              ----------                              


                         TUESDAY, JUNE 25, 2002

                           U.S. Senate,    
        Subcommittee on Western Hemisphere,
                Peace Corps, and Narcotics Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:38 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
J. Dodd (chairman of the subcommittee), presiding.
    Present: Senators Dodd and Chafee.
    Senator Dodd. Good afternoon. And I thank you. I apologize 
for starting a little bit late, but we had a vote that began 
just around 2:30. And so rather than come over and start early 
and then have to recess very quickly, I decided to wait a 
couple minutes.
    I believe my colleague from Rhode Island, Senator Chafee, 
who is the ranking member of this subcommittee, will be joining 
us at some point. And other members may come in and come out. 
And I thank them for their attention and support.
    I am going to share with you some opening comments and 
remarks. I note the presence in the audience of my colleague 
from Connecticut, Congressman Shays. And hiding out in the back 
of the room, I would point out.
    Congressman, you are more than welcome to join us up here 
on the dais. I would not want you to get any exaggerated 
thoughts about leaving the House, but you are welcome here to 
join us on the dais if you would like to and be part of the 
hearing.
    This is a wonderful friend and colleague, a former Peace 
Corps volunteer himself, and very, very active and interested 
in the subject matter. I know it is uncharacteristic of 
Senators to invite House Members to share in their----
    Congressman Shays. What side do I sit on, sir?
    Senator Dodd. Well, I would kind of like you on this side. 
But if you want to sit on this side--anywhere you would like to 
be----
    Congressman Shays. Thank you.
    Senator Dodd [continuing]. We are more than happy. And 
thank you for doing so.
    Congressman Shays. Thank you.
    Senator Dodd. Thank you for doing so.
    Well, today the Foreign Relations Subcommittee on the 
Western Hemisphere, Peace Corps, and Narcotics Affairs convenes 
to receive testimony on the future of the Peace Corps, and 
specifically on legislation that I have introduced, along with 
Senator Gordon Smith, Senators Kennedy, Toricelli, and several 
other members, to define the Peace Corps charter so that we are 
better able to meet the challenges the Peace Corps will face in 
the coming years.
    A companion bill has also been introduced in the House by 
Sam Farr, Mark Udall, and others. I want to thank Congressman 
Farr and Congressman Udall as well as members of the return 
Peace Corps community for working with us to craft the bill 
that is the subject of today's hearing. I look forward during 
the course of the hearing today to receiving comments on the 
legislation and to discussing ways in which we can begin to 
address the needs and challenges of today and tomorrow's Peace 
Corps so that it can continue to be as relevant in the 21st 
century as it was in the latter part of the 20th century.
    As we all know, some 41 years ago, President John Kennedy 
made public his vision for the future of an American volunteer 
service. He spoke of a corps of committed and idealistic young 
volunteers, the Peace Corps, who would travel all over the 
world promoting world peace and friendship. He saw public 
service as an ideal that would transcend political rhetoric.
    Volunteers were not to reflect particular Republican or 
Democratic ideologies, but rather their service was to be a 
manifestation of American values, values held in common by all 
of us as American citizens. The goal of this new endeavor was 
to support the development and betterment of the countries and 
communities where the Peace Corps volunteers served to foster a 
greater understanding of American values and culture abroad and 
to likewise foster a greater appreciation of other peoples' 
cultures on the part of Americans.
    Four decades later, and more than 165,000 Americans have 
volunteered to serve in the Peace Corps and worked with 
diligence and compassion to achieve the very aims outlined some 
41 years ago. As remarkable as the success of the Peace Corps 
has been and as important a symbol and example it is of public 
service in the aftermath of the tragic events on American soil 
on September 11, it has become something more. It has become a 
necessity.
    The terrorist attacks of last September have shown us that 
the world has become a much smaller place. The United States 
can no longer afford to neglect certain countries or certain 
parts of the world. We need to find ways to help developing 
countries to meet their basic needs, and we need to do so now.
    We especially need to act in places where there are people 
who are unfamiliar or hostile to American values. Now more than 
ever the Peace Corps volunteers play a pivotal role in helping 
to achieve a greater understanding of America abroad, 
especially in predominantly Muslim nations. If we are to expand 
the reach of the Peace Corps, to send our volunteers into more 
countries, then we must provide the Peace Corps with adequate 
resources to safely and effectively pursue these objectives.
    I believe that the legislation that we have introduced last 
week, the Peace Corps Charter for the 21st Century Act, 
provides a framework for the Peace Corps to maintain its 
relevance in the context of the new challenges it confronts and 
authorizes sufficient funding to implement that framework, 
including expanding the number of volunteers, as called for by 
President Bush.
    Today our witnesses have been asked to comment on the 
various provisions in that bill. Before turning to them, let me 
first take a few minutes to outline some of the significant 
provisions in the proposed legislation.
    First, our bill stresses the importance of maintaining the 
Peace Corps' independence from any political affiliation, 
party, government agency, or particular administration. This 
independence is absolutely critical to the continued success, 
credibility, and acceptance of the volunteers in the countries 
where they are to serve.
    We must vigilantly preserve this independence. This is 
especially critical as we attempt to open new programs in 
challenging places. We must make sure that the Peace Corps' 
goal of friendship, peace, and grassroots development are in no 
way muddled or compromised by short-term political objectives.
    One way the Peace Corps can address the needs of the 21st 
century is to give special emphasis to recruiting volunteers 
for placement in countries whose governments are seeking to 
foster a greater understanding by and about their citizens. 
Moneys are authorized in the bill for this purpose.
    The bill also calls upon the director of the Peace Corps to 
outline a strategy for increasing the Peace Corps presence in 
countries with substantial Muslim populations and other places 
of particular concern. We must find ways to engage with these 
nations, particularly with the younger generation, and to 
foster more open interaction and understanding between our 
citizens.
    I know that the current Peace Corps Director is anxious to 
provide opportunities for Americans for all walks of life and 
ethnicity to become volunteers. And I commend him for that.
    Gaddi, you have my compliments on the work you have done.
    To that end, the pending legislation attempts to level the 
playing field in order to make it possible for more Americans 
to become volunteers through an assessment of the adequacy of 
college loan forgiveness programs offered to volunteers and by 
an increase in the readjustment allowance provided to 
volunteers at the end of their service.
    Another important provision in this legislation is the 
training mandated for volunteers in the areas of education, 
prevention and treatment of infectious diseases, such as HIV/
AIDS, malaria, and tuberculosis, so that they can better help 
fight these diseases in the communities in which they will be 
serving.
    This training, in cooperation with the Centers for Disease 
Control and Prevention, the National Institutes of Health, the 
World Health Organization, the Pan American Health 
Organization, and local officials, I believe will help prepare 
volunteers promote a better grassroots approach to public 
health safety and disease prevention.
    I also feel very strongly that we must find better ways to 
utilize the insights and experience of return volunteers to get 
them more involved in the promotion and support of the Peace 
Corps' three core goals. One way I believe to do this is to 
provide Federal grant moneys to nonprofits established by 
return volunteers. These nonprofits would be established for 
the express purpose of using the knowledge, experience, and 
expertise of return volunteers to help carry out the goals of 
the Peace Corps. Return volunteers are an underutilized 
resource, I think, in this country. This would seek to remedy 
that under-use.
    As our witnesses today will make clear, many return 
volunteers do continue to make a difference here at home 
through their enduring community service and their work to 
strengthen America's appreciation of other cultures. Together 
they are building a legacy of service for the next generation. 
And it is my hope that the nonprofit grant moneys provided in 
this bill will help provide them with yet another outlet for 
continued service.
    Finally, let me speak briefly about the funding level 
increases called for this legislation. Over the next 4 years, 
this bill authorizes annual appropriations in the following 
amounts: $465 million for fiscal year 2004; $500 million for 
fiscal year 2005; $560 million for 2006; and $560 million for 
2007.
    In addition and most importantly, this bill allows for 
additional appropriations to be made to address the specific 
funding needs of the Peace Corps as it seeks to increase 
volunteer strength. Again, we must not allow our desire to 
expand the number of volunteers in the field to infringe on the 
security of our volunteers or the quality of the Peace Corps 
experience. If that means that the President's goal of doubling 
the Peace Corps by 2007 is not met, then so be it, in my view. 
Quality must go hand in hand with quantity if this organization 
is to remain true to its goals, as I have stated earlier.
    In conclusion, I believe that the Peace Corps charter for 
the 21st century provides a road map for the Peace Corps to 
enable it to better meet the future needs of our volunteers 
while expanding and refining the organization. The Peace Corps 
is a symbol of the very best of American ideals of service, 
sacrifice, and self-reliance. And our volunteers are to be 
commended again for their enduring commitment to these ideals 
and for the way that they are able to communicate the message 
of the Peace Corps throughout the world. They are entitled to 
an organizational framework and funding levels that meet the 
demands that they will confront in the coming years.
    I am now going to turn to--Congressman, do you want to make 
any opening brief comments here before we start?
    Congressman Shays. Absolutely.
    Senator Dodd. Do this before some Senator shows up so I do 
not get myself in trouble here.
    Congressman Shays, as I mentioned earlier, is a former 
volunteer, as is his wife, Betsy, and knows the organization 
very, very well. I am delighted you are here. Thank you for 
coming over.

STATEMENT OF HON. CHRISTOPHER SHAYS, (R-CT) U.S. REPRESENTATIVE 
       FROM THE 4TH CONGRESSIONAL DISTRICT OF CONNECTICUT

    Congressman Shays. Thank you, Senator Dodd. You are one of 
my heroes in public life. And I attribute a lot of your 
instincts to your opportunity to serve in the Peace Corps. And 
I consider you such an extraordinary friend of the Peace Corps. 
I find myself sitting in Mr. Feingold's chair, and I feel very 
comfortable in this seat.
    Senator Dodd. Do not try to amend this bill with any 
campaign finance reform.
    Congressman Shays. Then-Senator Kennedy, John Kennedy, when 
he was debating President Nixon, he captivated me by his--in 
eighth grade, the opportunity to potentially serve in another 
country and walk in the paths that people would walk in, travel 
their roads, drink their water, eat their food, dress in their 
clothes, live in their houses, speak their language, you know, 
just get to understand and appreciate their culture. And I 
think that we both learned that as much as we thought people 
were different, there was so much that united us, so many 
similarities between people of all cultures. And for me, the 
Peace Corps was the greatest experience in my life. And I came 
here truly not to participate here, but just to understand this 
bill--because I have some questions. And I want to understand 
the motivation and also frankly to support the Director of the 
Peace Corps, because I feel that he is working really hard to 
try to make this a very humane and magnificent organization. 
And I think all Peace Corps volunteers rally around your effort 
to do that.
    And so I thank you.
    Senator Dodd. Thank you very much, Congressman.
    Now I am going to invite Mr. Gaddi Vasquez, who is the 
Director of the Peace Corps. Gaddi, we welcome you to the 
committee. And that chair right in front of you is your chair.
    I said to--in fact last week there were some wonderful 
ceremonies. I did not attend all of them. But the reception on 
Thursday night and a program at Constitution Hall on Friday 
morning where Sargent Shriver came in and mesmerized the entire 
audience, as apparently he did on Friday night or Saturday, 
arriving on a Harley Davidson. I was thinking they gave me a 
Honda 50 when I was a volunteer. I would have appreciated a 
Harley Davidson back in those days.
    But I said it then and I will say it here publicly for this 
record, Gaddi, there were people who raised a lot of concerns 
when the President nominated you for this job. I supported you. 
And you have proven to be a good Director. You have only been 
on the job a relatively short amount of time, but I like the 
fact that you are getting out, you have visited as many 
different countries as you have, you are meeting with all the 
return volunteer groups in the country, listening to them, 
which I think is very, very important. And so I commend you for 
the work you have done. It has been good. And we look forward 
to working with you and are anxious to receive your testimony.
    I will say to you and to the other panelists who will be 
appearing shortly that all of your statements in full will be 
included in the record and supporting data, materials you may 
think are important we will include as well as part of this 
record.
    And so with that, the floor is yours, Mr. Vasquez.

STATEMENT OF HON. GADDI H. VASQUEZ, DIRECTOR, THE PEACE CORPS, 
                         WASHINGTON, DC

    Mr. Vasquez. Thank you, Mr. Chairman. I appreciate this 
opportunity. And I also want to thank Congressman Shays for his 
comments.
    Mr. Chairman, I also want to thank you very much for your 
continued support and interest in the work of the Peace Corps. 
As a former volunteer, you certainly have a very unique 
perspective of Peace Corps service. And I thank you for all 
that you have done on behalf of the Peace Corps and the 
volunteers who have served over the 41-year history of this 
great organization.
    As you have mentioned, this past weekend, the National 
Peace Corps Association hosted a gathering of our RPCVs, return 
Peace Corps volunteers, their families, their friends, to 
celebrate that anniversary. These are exciting times for the 
Peace Corps as we embark on what could really be one of the 
most significant areas of expansion for the Peace Corps in many 
decades.
    President Bush, as has been referenced, has called for a 
doubling of the Peace Corps. And we have been mapping out 
organizational plans subject to appropriations by Congress. But 
I can report to you, Mr. Chairman, that the American public is 
responding to that call. The interest in serving has seen an 
upward trend since President Bush called on Americans to engage 
in community and public service.
    From January to the present, we have seen an almost 17 
percent increase in applications over the same period last 
year. Requests for applications are up almost 59 percent over 
last year. So it is fair to say that the President's message, 
coupled with our recruitment strategies, are having some 
results.
    We have also been using technology to advance and expedite 
the application process. I know that those who have served in 
the Peace Corps would appreciate the fact that now you have 
online accessibility to tracking your application. And for 
those who have not been, it is maybe not too important. But for 
those that have, that is a major, major step forward in order 
to expedite our process.
    And as the new director of the Peace Corps, I have made 
many, many efforts and have engaged in visitations with staff, 
with volunteers, and return Peace Corps volunteers, because 
that is a very high priority. And based on their input and 
their unique perspective, I have initiated a number of efforts 
at the Peace Corps.
    We are moving aggressively to become more agile and 
responsive to the needs of the applicants, the trainees, and 
volunteers. And we are enhancing our safety and security 
functions.
    As Peace Corps Director, I have had the privilege of 
visiting 7 countries thus far, including Afghanistan, Pakistan, 
China, Peru, Senegal, Mauritania, and Morocco. In Peru I had 
the privilege of signing the bilateral agreement that will 
result in our reentry to Peru after a 27-year absence. And in 
addition, on June 21, 16 volunteers arrived in East Timor, the 
first new country of the 21st century.
    So, Mr. Chairman, I believe that we are well positioned to 
implement a smart growth plan by entering new countries, 
optimizing the number of volunteers in existing countries, 
expanding our recruitment efforts to create greater diversity 
in the Peace Corps, recruiting more seniors to serve in the 
Peace Corps--and, I might add, about 7 percent of our current 
volunteers are 50 and over--and using technology and advanced 
communications----
    Senator Dodd. We still consider that very young.
    Mr. Vasquez. Yes, sir. It is very young.
    Senator Dodd. I just wanted to make sure that I heard that 
right. When I talked about young Americans, I was thinking 
about people over 50. I want you to know that.
    Mr. Vasquez. Yes, sir. Duly noted.
    We are also using technology and advanced communications 
strategies to reacquaint Americans with the Peace Corps. So, 
Mr. Chairman, I appreciate the opportunity to address your 
committee today about the proposed legislation that has been 
introduced.
    We have had a limited amount of time to review the 
legislation and to analyze it in any kind of great detail. 
There are a number of portions within the legislation that 
would require some analysis on our part before I could provide 
in-depth comments or perspectives on some of the elements of 
the proposal.
    But I do hope that we have the opportunity to work with 
you, Mr. Chairman, and your staff to analyze those sections of 
the proposal. I would like to offer some general observations 
about managing the Peace Corps that may relate to the proposal.
    As has been mentioned, the Peace Corps has enjoyed a 41-
year history of success, progress, and achievement. And while 
the numbers of volunteers has fluctuated over the 41-year 
history, I think it is very fair to say that the Peace Corps 
has been a great success. The Peace Corps is a unique agency 
operating in 70 countries with 7,000 volunteers. The challenges 
are many. But as you know, Mr. Chairman, the volunteer is 
always No. 1. I would offer the opinion that directors need to 
have the latitude and managerial freedom to make important 
decisions affecting the safety and security of volunteers and 
staff overseas. We have to be able to administer our 
initiatives and other matters that require swift and decisive 
action.
    A change in a director's ability to launch initiatives, 
like the Crisis Corps or safety enhancements or other potential 
initiatives, could hamper the director's ability to make 
critical and timely decisions. The current Peace Corps Act 
provides for a broad advisory board that would include 15 
members and 7 return Peace Corps volunteers.
    Since coming to the Peace Corps, I have made it a point to 
begin to explore the history of the advisory board, to better 
understand how it has been used by previous directors and to 
try to maximize value where appropriate. And also since coming 
to the Peace Corps, I have launched a number of initiatives 
that I would like to briefly share with you but that are 
critical to the future of the Peace Corps.
    One is an initiative to evaluate the barriers and obstacles 
to service in the Peace Corps. You have identified one in your 
comments, Mr. Chairman, relative to student loans. That is a 
major issue. We want to examine those barriers, those 
obstacles, to service in the Peace Corps.
    We also have enhanced our staging of security and safety 
training for volunteers. We have reorganized the safety and 
security functions within the Peace Corps to create more direct 
accountability to the director's office and we have 
restructured the process of compliance.
    We have also announced an initiative with the National 
Peace Corps Association to enhance the role of the return Peace 
Corps volunteer community. I totally concur and agree with you, 
Mr. Chairman, that the return Peace Corps volunteer community 
is absolutely one of the most underutilized assets that we have 
available to us. And we want to change that. And that is why 
President Dane Smith of the NPCA and I have agreed to form a 
working group to identify opportunities to work together.
    If we are provided the appropriations to expand the Peace 
Corps and are empowered to make the key decisions that need to 
be made, we can accomplish a great deal. I am committed to 
protecting and preserving the core values of the Peace Corps. 
And I am committed to preserving the quality of the Peace Corps 
volunteer experience. And moreover, I am committed to building 
a new Peace Corps for the 21st century.
    And in conclusion, while I have had a limited amount of 
time to analyze the scope and the intent of the legislation, I 
do look forward to possible discussions with you, Mr. Chairman, 
and the committee and staff to get some clarification and then 
be able to move forward.
    Thank you, Mr. Chairman.
    Senator Dodd. Thank you very much, Mr. Director.
    [The prepared statement of Mr. Vasquez follows:]

   Prepared Statement of Hon. Gaddi H. Vasquez, Director, Peace Corps

    I am pleased to appear before your Committee today. I have a 
heightened appreciation for your interest in the Peace Corps and 
sincere admiration for your own service in the Dominican Republic in 
the late 1960's. Because you are a Returned Peace Corps Volunteer 
(RPCV), I know you share in our enthusiasm to ensure the Peace Corps 
continues as a world-class organization promoting world peace and 
friendship abroad.
    While I understand the purpose of today's hearing, let me reserve 
some general comments on the legislation for later in my testimony, but 
at the outset, let me say that I look forward to working with you, Mr. 
Chairman, and your staff and hope that together we can continue a 
productive relationship that will serve this agency and our Volunteers 
well. In an effort to put my testimony in context, one must understand 
the past, present, and future of the Peace Corps. Valuable lessons have 
been learned over the last 41 years. We remain committed to the core 
values of the Peace Corps and believe that any changes or alterations 
to the management structure and administration of the agency require 
thoughtful and constructive dialogue and, again, we look forward to 
working with you.
    I thought I would begin my comments by reviewing with you some of 
the actions and initiatives that I have taken since my swearing-in on 
February 15th of this year. It has been an exciting four months at the 
agency as we set the stage to carry out President Bush's call for 
public service and his goal to double the number of Peace Corps 
Volunteers over the next five years. Mr. Chairman, never in the history 
of our nation has the mission of Peace Corps been more important. As 
you are quite familiar, the work of the Volunteers is carried out 
through three goals as outlined by President John F. Kennedy upon the 
formation of the Peace Corps. Those goals are:

  <bullet> to help the people of interested countries and areas in 
        meeting their need for trained men and women;

  <bullet> to help promote a better understanding of Americans on the 
        part of the peoples served; and

  <bullet> to bring that information back home to help promote a better 
        understanding of other peoples on the part of Americans.

    While the world today is very different from how it was in 1961, 
and even more so since September 11th--the American spirit of sharing 
with others remains a fundamental part of our democratic society.
    Many host country leaders and community members have expressed deep 
feelings about the Peace Corps, similar to those shared recently by Mr. 
Teburoro Tito, the President and Foreign Minister of Kiribati, when he 
said, ``This Republic is in love with the Peace Corps,'' he said. ``We 
are in love with them, with their goals, their hard work, and their 
willingness to live like us.''
    And, just as President Kennedy challenged a new generation during 
the establishment of the Peace Corps in 1961 to join ``. . . a grand 
and global alliance . . . to fight the common enemies of man: tyranny, 
poverty, disease, and war . . . To those people in the huts and 
villages across the globe struggling to break the bonds of mass 
misery,'' he said, ``we pledge our best efforts to help them help 
themselves.'' Kennedy went on to note that, ``. . . the life will not 
be easy, it will be rich and satisfying. For every young American who 
participates in the Peace Corps--who works in a foreign land--will know 
that he or she is sharing in the great common task of bringing to man 
that decent way of life which is the foundation of freedom and a 
condition of peace.''
            travel to past and present peace corps countries
    In the spirit of President Kennedy's remarks, and inspired by the 
challenge from President Bush, in early March, I traveled to the 
counties of Afghanistan and Pakistan where I met with government 
officials to discuss Peace Corps programs and future opportunities that 
may exist for our Volunteers. In Afghanistan, in particular, I met with 
the Peace Corps assessment team members who were conducting programming 
and security assessments, along with embassy officials, to determine if 
conditions would support the sending of our agency's Crisis Corps 
Volunteers. I traveled to China, and had an incredible visit--with 
Helen Raffel a Peace Corps volunteer who, at age 74, teaches 
environmental science and English at Sichuan University in the Chengdu 
province of China. Her enthusiasm, vigor, and accomplishments were 
truly amazing and offered many insights into the needs of these 
nations. Peace Corps has the ability to provide trained men and women 
to meet the emerging needs of their respective peoples, but within our 
grasp is the ability to touch an entire generation of people throughout 
the world.
    I traveled to Peru during President Bush's visit with President 
Alejandro Toledo, and I had the privilege of signing a bilateral 
agreement with the government of Peru. This agreement will allow Peace 
Corps volunteers to return to Peru for the first time in more than 27 
years. As a young man, President Toledo was taught by Peace Corps 
Volunteers who lived in his family home. The Volunteers made a lasting 
impact on his life and he remains a strong advocate of the Peace Corps 
today.
    In June, I visited Peace Corps programs in Senegal, Mauritania and 
Morocco. While in the city of Azib, Morocco, I visited an environmental 
Volunteer and the Women's Center where she works. The Volunteer is 
providing training and assistance to expand the sales of their locally 
produced crafts.
                             budget request
    Mr. Chairman and Members of the Subcommittee, I report to you 
today, that the future of the Peace Corps is brighter than ever and we 
are setting into motion plans that will lead the agency into the 21st 
Century and increase our efforts around the world. This Administration 
is committed to the Peace Corps and the President has demonstrated his 
support by requesting an increase in our budget from $275 million in FY 
'02 to $320 million in FY '03. We believe that the budget request will 
enable us to increase the number of Volunteers while at the same time 
ensure that the quality of our Volunteers and the Volunteer experience 
remain high. We advocate fill funding, which we believe is warranted.
                          safety and security
    Safety and security remains a top priority for the Peace Corps 
particularly in the aftermath of September 11th. Meeting the 
President's initiative to double the number of Peace Corps volunteers 
over the next five years is dependent on the Peace Corps providing a 
safe and secure environment during each Volunteers term of service. A 
number of important initiatives are now underway. These initiatives not 
only strengthen the safety and security training for our Volunteers, 
but also galvanize the security infrastructure at posts around the 
globe.
These new initiatives include:

  <bullet> The implementation and compliance ofnew procedures for 
        Volunteer/Trainee Safety and Security (Manual Section 270) to 
        measure and monitor posts' compliance with important safety and 
        security requirements;

  <bullet> The hiring of over 40 new personnel in the field and at 
        headquarters in security related positions;

  <bullet> The addition of one full day of safety and security training 
        during staging for new trainees;

  <bullet> The establishment of regular safety and security staff 
        training on a two-year cycle;

  <bullet> An enhancement of the safety and security information 
        message that a potential applicant receives from his or her 
        first contact with Peace Corps--during recruitment and 
        throughout the application process; and

  <bullet> The ready availability of a library of safety and security 
        information on the Peace Corps Intranet.
     strategic plan to double the number of peace corps volunteers
    Following President Bush's State of the Union Address when be 
called for the doubling of Peace Corps Volunteers, we had an immediate 
300 percent increase in traffic to the Web site in the first 48 hours. 
Since January, interest in the Peace Corps remains high. Traffic to the 
Web site is 89 percent higher than the same period of time last year, 
inquiries--requests to our offices for an application--are up 39 
percent over last year and the number of applications submitted both 
online and on paper total 4,701, a 17 percent increase over this same 
period of time last year.
    We received approximately 94,500 inquiries last year resulting in 
8,897 applications, which produced 3,166 trainees in addition to those 
who were serving in the field. Our standards remain high as to the 
suitability requirements and technical skills required of the Peace 
Corps assignments. Currently, we have a number of task forces to 
examine our recruitment and selection process, our internal processing 
of applications and to identify and examine barriers and obstacles to 
service.
    Although there are more and more Volunteers who have advanced 
degrees and specialized technical skills who are joining the Peace 
Corps, the vast majority are people with solid generalist backgrounds 
with lots of leadership and community service experience. Volunteers 
serve in a broad range of programs. Such as:

  <bullet> Education

  <bullet> Health and HIV/AIDS

  <bullet> Environment

  <bullet> Agriculture

  <bullet> Business Development

  <bullet> Information and Communication Technology

    Recruiting is one of our key challenges and in responding to the 
President's challenge to increase the number of Volunteers, our agency 
has recently delivered to Congress our Fiscal Year 2003 Congressional 
Budget Presentation, which outlines our eleven goals to accomplish this 
effort.
    The first goal is to reacquaint the American people with the 
mission of the Peace Corps--by introducing the value of Peace Corps 
service to a broader audience, particularly school children, seniors 
and those ``baby boomers'' who are nearing retirement, we bring the 
visibility of the work of the Volunteers to a new audience of potential 
Volunteers.
    Second, the agency will seek to expand recruitment efforts and 
increase diversity of our Volunteer population. This means that 
recruitment efforts will grow beyond college campuses. Just as the face 
of America has changed over the past 40 years, so will our recruitment 
efforts so that we reach out to all people regardless of faith, married 
couples and the disabled, seniors and retirees, and the scores of men 
and women who are currently in the work force or between jobs and 
looking to make a meaningfull contribution to the United States.
    Third, efforts will be made to optimize the number of Volunteers 
and staff currently working in each country. The Peace Corps will 
continue to seek advice from country directors about possibilities for 
growth and the placement of additional Volunteers in new programs. We 
believe that incremental growth in a number of countries will increase 
the number of Volunteers worldwide.
    Fourth, the Peace Corps will expand programs into new countries. I 
am pleased to announce that just last week, we sent 19 eager and 
enthusiastic Volunteers to the new nation of East Timor. It is 
thrilling to know that these Volunteers, after traveling over 36 hours, 
will be the first Americans that many people of this island nation will 
see. We will also be re-opening the Peru program this August. We have 
been approached by a large number of representatives from the 
governments of countries who are anxious to have Peace Corps return to 
their country. We are also eager to forge new alliances with countries 
that have never had Peace Corps Volunteers.
    Fifth, we are going to explore new ideas such as expanding current 
alliances with organizations such as the American Red Cross and the AOL 
Time Warner Foundation, as well as the Centers for Disease Control and 
Prevention. We are also working with the RPCV community on how to make 
best use of their collective talents. The 165,000 RPCVs are a resource 
that we intend to maximize both in their important work with Third Goal 
activities and in the recruitment of potential new Volunteers.
    Sixth, Peace Corps plans to improve the Volunteer delivery process. 
Nearly 60 percent of current applications are now using the online 
application, which decreases considerably the Volunteer delivery 
timetable. However, we have more work to do to shorten the time between 
the first contact with a potential applicant and the time that the 
applicant departs to begin training.
    Seventh, we plan to expand and broaden the Crisis Corps program, 
which mobilizes returned Volunteers to respond to natural disasters 
throughout the world on a short-term basis. To date, more than 450 
Crisis Corps Volunteers have served in 30 countries. Currently, Crisis 
Corps Volunteers work in eight countries in Africa on HIV/AIDS-related 
activities.
    Eighth, we are going to review the participation of the Peace Corps 
in the United Nations Volunteer program. This program was developed in 
1971 by the United Nations General Assembly and is administered by the 
United Nations Development Program. There are approximately 50 United 
States citizens currendy serving in two-year UNV assignments supported 
by Peace Corps.
    Ninth, I intend to strengthen and expand the scope of the Peace 
Corps' domestic programs that are designed to help educate Americans 
about other countries. The Volunteers' years of experience working and 
living in cross-cultural situations presents a treasure trove of 
information that must be preserved and made available to the American 
public. Development of publications and placing these materials online 
will be useful to domestic and international educators, students, 
domestic volunteer organizations, and people who volunteer in their 
home communities. Examples of our publications include: Culture 
Matters: The Peace Corps Cross-Cultured Workbook and Insights From the 
Field: Understanding Geography, Culture and Service.
    Tenth, we intend to continue to provide high-quality programming 
and training support to our overseas staff and Volunteers. Building on 
our agency's existing strength in teaching Volunteers to speak new 
languages, the Peace Corps will re-assess and redesign our training 
programs. We are looking at additional training opportunities prior to 
departure to ensure that Volunteers are prepared to undertake 
increasingly sophisticated project activities in complex environments 
with difficult-to-learn languages.
    Our eleventh goal is to place a special emphasis on the use of 
world class technology to communicate and share knowledge to achieve 
improvements in overseas communications and connectivity around the 
globe. In August 2000, Peace Corps headquarters completed its migration 
from a Macintosh-based to a Windows-based computing platform. The Peace 
Corps also recently redesigned its Web site (www.peacecorps.gov) and 
was nominated by the International Academy of Digital Arts and Sciences 
for their prestigious ``Webby'' award. The Peace Corps was very pleased 
to have been nominated among such notable organizations as Amazon.com, 
Google.com and the United States Army.
            the peace corps charter for the 21st century act
    Collectively, we are all at the beginning stages of reviewing the 
legislation just introduced at the end of last week. While I have not 
had sufficient time to thoroughly examine the specifics of the 
proposal, one of the major strengths of the Peace Corps Act is that it 
is a broad authorization, which has over the years, given ample 
opportunity for the agency to maintain its independence and its 
effectiveness. Congress set forth broad objectives, and let the 
Executive Branch, in consultation with the host government or its 
peoples and Congress, establish programs that meet the individual needs 
of each country. Few agencies have been so successfully and efficiently 
managed over such a long period. In addition to its traditional 
Volunteer programs, this broad authority has enabled the Peace Corps to 
launch such successful initiatives as the Paul D. Coverdell World Wise 
Schools Program and the Crisis Corps. These accomplishments were 
possible because of the flexibility under the Peace Corps Act.
    Our effectiveness in an era of continued growth and opportunity 
requires the flexibility to manage a decision-making process that best 
serves the agency and, most importantly, the Volunteers. While there 
are a number of initiatives and programs that we have undertaken at the 
Peace Corps; several stand out as prime examples of our ongoing efforts 
to build the Peace Corps for the 21st Century.
    First, we consider the RPCV community to be the most underutilized 
resource we have. That is why I have made it my highest priority to 
meet with RPCVs at every opportunity in the U.S. and abroad. As I 
stated earlier, I believe they are one of our best resources for 
recruitment. These RPCVs have first hand experience in the field and 
can help us to capture the imagination of those interested in 
international volunteer service. I have also been working with Dane 
Smith, President of the National Peace Corps Association (NPCA), to 
design a strategy to expand the role for RPCVs and former Peace Corps 
staff in America.
    Peace Corps has been in countries with predominantly Muslim 
populations since the program began. Currently, 23 percent of 
Volunteers are serving in countries with predominantly Muslim 
populations, while two-thirds of potential new country entries are 
predominantly Muslim countries. From Senegal to Kazakhstan, the Peace 
Corps' mission in these regions has become increasingly important. Host 
communities are exposed to positive and personal images of America and 
returning Volunteers share their new understanding of different 
cultures with friends and family in the United States.
    The Peace Corps continues to be actively engaged in activities 
addressing HIV/AIDS. Fightirg the ravages of this disease continues to 
be paramount to the lives of people across the globe, and to this 
agency. Volunteers who serve in Africa--regardless of their program 
sector--are trained to provide HIV/AIDS prevention and education as 
part of their duties. This year we are re-entering Botswana and 
Swaziland, exclusively to address the HIV/AIDS epidemic in those 
countries. In June of 2000, the original HIV/AIDS Initiative was 
greatly strengthened with additional funding from USAID and grants from 
the Gates and Packard Foundations. In the future, we anticipate a 
further expansion of HIV/AIDS programs outside of the Africa region.
                               conclusion
    The Peace Corps has a clear mission that has served the agency well 
for the past 41 years. The strategy outlined above is our blueprint as 
we set out to double the number of Peace Corps Volunteers over the next 
five years, heighten the visibility of the work of the Volunteers, and 
create a renewed worldwide interest in international volunteer service. 
Our FY 2003 budget request of $320 million will also support the 
enhancements to the safety and security of our Volunteers and permit 
the Peace Corps to open new programs and, at the proper time, re-open 
currently suspended programs with dedicated Volunteers.
    In conclusion, I am grateful to you and members of the Committee 
for your continued support of the Peace Corps mission. September 11th 
is a grim reminder that the work of past, present, and future 
Volunteers is more critical than ever. I believe that the Peace Corps 
is well positioned to achieve expansion and build upon the successes of 
the past 41 years.

    Senator Dodd. We will be hearing from Dane Smith shortly, 
but I want to commend the National Peace Corps Association as 
well for their fine conference. They had a great turnout. And 
it was wonderful to hear so many people and share thoughts with 
them about the Peace Corps. And it was wonderful to watch so 
many people who had not seen each other in a long time come 
together. So I thank Dane Smith and all those who were involved 
with the organizational efforts over last weekend.
    Let me begin with just a series of questions for you. And I 
am going to----
    Chris, if you have some questions, I am going to turn to 
you at some point and ask you to be part of the record if you 
would like.
    I emphasized in my comments, Mr. Director, the independence 
of the Peace Corps. In fact, I think you were there on Friday 
morning when I shared some brief remarks with the audience and 
talked about the independence and the reaction of the return 
Peace Corps volunteers, how strongly this is felt among the 
165,000 of us as return volunteers, as well as obviously those 
in the field, I think, the importance of independence.
    I am curious whether or not the Bush administration 
supports the continued independence of the Peace Corps as 
required by law, No. 1. And two, what is the relationship 
between the USA Freedom Corps and the Peace Corps?
    Mr. Vasquez. Well, Mr. Chairman, the relationship between 
the USA Freedom Corps and Peace Corps is one that the President 
described in the Executive order that created USA Freedom 
Corps. But in essence, for us, the USA Freedom Corps is two 
essential things.
    The first is that it creates an opportunity for an 
interagency council comprised of a number of agencies that are 
part of the response or the opportunity, as I like to call it, 
for Americans to respond to the President's call for service.
    As you know, Mr. Chairman, the President has issued a call 
to all of us to contribute our time and our lives and our 
talents to some form of community or volunteer service. The 
Peace Corps is one of those avenues, one of those opportunities 
to serve.
    The USA Freedom Corps is an interagency council and an 
office that is monitoring to see how we are creating the 
opportunities for people in the United States to serve. And 
they are, for instance, an organization that provides Americans 
a passage or an avenue to our Web site, our linkages.
    But my clear understanding of the USA Freedom Corps is that 
it is intended to be an interagency council to be able to track 
the opportunities that we are creating for Americans to be able 
to serve. I do not believe that there is any change or any 
alteration to the independence of the Peace Corps within the 
executive branch. We continue to do our work on a daily basis. 
We continue to design our priorities for our agency. And we 
continue to expand where we believe it is safe, it is secure, 
and it fits within the goals and within the mission of the 
Peace Corps.
    So in my view, the USA Freedom Corps, and based on the 
discussions that I have had with Mr. John Bridgeman, whom you 
know, is that it is intended to be a coordinating council. And 
I fully expect that we will be meeting in the not too distant 
future to discuss how we are progressing in terms of creating 
greater opportunities for Americans to serve, specifically in 
the Peace Corps.
    Senator Dodd. Let me--I will just make the statement, and 
you can answer yes or no. So the administration does support, 
as required by law, the continued independence of the Peace 
Corps.
    Mr. Vasquez. Yes, sir.
    Senator Dodd. And as I understand it, the USA Freedom 
Corps, the role as has been explained to me is primarily one to 
help promote the Peace Corps by a Web site or other such means 
to facilitate further volunteerism. I am curious about it in a 
sense because I do not--I mean, I know about USA Freedom Corps. 
But if I had to ask a room full of people if they had heard 
about USA Freedom Corps and the Peace Corps, I suspect more 
people will have heard about the Peace Corps than USA Freedom 
Corps.
    So the question becomes, we have one organization that very 
few are familiar with promoting an organization that people are 
very familiar with. And I am sort of curious as to how that is 
going to work.
    Mr. Vasquez. Well, Mr. Chairman, I think that the USA 
Freedom Corps, again, is the coordination council, within the 
administration. But at the end of the day, it is the Peace 
Corps who is still strategically responsible for the 
recruitment, for promoting the Peace Corps, not only in terms 
of the public knowing about who we are and what we do, but also 
managing it, administering the actual recruitment efforts in 
terms of accounting, in terms of accessing, in terms of 
screening, in terms of approval, in terms of placement, and 
obviously the deployment of volunteers in the countries in 
which we serve.
    So that has not changed. That remains very much intact. It 
is true that if you go to the USA Freedom Corps Web site, it 
allows you the opportunity, if I am sitting out in Nebraska 
somewhere trying to figure out how I respond to President 
Bush's call to public service--is it Crisis Corps that is for 
me? Is it Peace Corps? I have an opportunity then to go off of 
that USA Freedom Corps Web site and link to the Peace Corps Web 
site and in turn then identify what opportunities may exist for 
me.
    So I think it facilitates information, but the USA Freedom 
Corps office also facilitates some coordination to ensure that 
we are doing what we can do to create those opportunities for 
Americans to serve.
    Senator Dodd. Well, if that is going to be the role, I do 
not find anything on its face that is troublesome about that. 
But obviously, we all are going to be watching it.
    Mr. Vasquez. Certainly.
    Senator Dodd. I understand--and you and I have talked about 
this--there have been times over the 41 years when others have 
sought to sort of deprive the Peace Corps of its unique 
historic, independent role. And so we are somewhat sensitive to 
the subject matter because we have been down the path before. 
And it took a long time to undo the deprival of independence of 
the Peace Corps.
    So keep your eye on this one very carefully----
    Mr. Vasquez. Certainly, Mr. Chairman.
    Senator Dodd [continuing]. Mr. Director. It is one where 
obviously people up here are going to be watching it carefully. 
But we are sort of calling on you to keep an eye on it as well.
    Mr. Vasquez. Certainly.
    Senator Dodd. Let me ask you about the budget submissions, 
if I can. According to the fiscal year 2003 Peace Corps budget 
submission, the administration is projecting budget increases 
for the next 4 years to coincide with the President's proposal 
to double the number of volunteers. I wonder how you develop 
those numbers. And does it include additional funding to expand 
headquarters to better manage the growth of the organization, 
the point I tried to make in here, the quality versus quantity 
issue, which is something that many of us are very, very 
concerned about?
    Mr. Vasquez. Certainly. Well, thank you, Mr. Chairman. 
First of all, let me say that I am truly committed to the 
principle that we will not compromise the quality of the Peace 
Corps volunteer experience. I think it is critically important 
on a number of fronts. And I will speak to the budget 
specifically, but if I may for just a moment talk about the 
philosophy that we are trying to exercise here.
    The philosophy we are trying to exercise is that we need to 
protect the core values of the Peace Corps. And one of the core 
values is providing good jobs and a good opportunity for 
Americans to go overseas and to serve in the Peace Corps, to 
make a contribution in country, but also to come back with the 
experience of having served and to hopefully then participate 
in the third goal of the Peace Corps, which you are more 
familiar with, which is to stay involved through the National 
Peace Corps Association, the return Peace Corps volunteer 
community.
    One of the examples that I give to you of that commitment 
is that I have had a personal hand in the selection of 20 
country directors since I have arrived at the Peace Corps. And 
15 of those 20 are return Peace Corps volunteers, because they 
bring a unique perspective to the management and administration 
they can offer in country.
    That is very, very important because the country director 
plays a major role in helping us to find what are those 
valuable jobs, what are those opportunities, so when a 
volunteer comes in a country that they will be attached, 
affiliated with a responsibility and a program that is 
meaningful.
    So to that end, we have sought information from our 
countries, our country directors. And that is why the quality 
of the country director is important. We have asked staff and 
headquarters to give us a foretaste and analysis of what it 
would take to achieve the goals that have been set out and do 
so in an integrated way so that the infrastructure grows 
incrementally with the growth of Peace Corps volunteers.
    So we are assessing what it would take to recruit, what it 
would take for medical services; what it would take both at 
headquarters, in our regional offices in terms of recruitment, 
to get to those goals; as well as what it would cost to be able 
to finance the operations in country.
    Senator Dodd. So you are--I mean, this is, the issue of 
making sure we have the infrastructure to support these 
increases is critical.
    Mr. Vasquez. Absolutely.
    Senator Dodd. Let me do some followup on that, because in 
the budget submission, the average number of volunteers as I 
read it, now here projected for fiscal year 2003, was about 
6,300, while the number of volunteers expected to be on board 
on September 30, 2003, was 8,200. And I was confused about the 
discrepancy of almost 2,000 volunteers in those two numbers.
    Mr. Vasquez. The numbers that we describe in our reports, 
Mr. Chairman, have to do with the fact that we have a 
fluctuation of numbers as trainees come into the service of the 
Peace Corps. We typically use the end of September as the time 
to gauge the number of volunteers that we have in service. But 
at any given time, we will have trainees who will be coming 
into the Peace Corps and others who will be, what we call, 
close of service, at the end of their Peace Corps service.
    And so there are numbers that fluctuate. But we believe 
that by the end of 2003 we will be at 8,200, based on all of 
the assessments that we have done and recognizing that there 
are all those fluctuations. But we use the number of 8,200 as 
the goal that we will achieve. We have had internal discussions 
about that number and about the goals that have been set out. 
And staff, both at headquarters and overseas, agree that we can 
achieve and attain that target.
    Senator Dodd. Could you as well--and you may have--I think 
you shared this with me once before, but I have forgotten the 
number. What are we looking at today in terms of number of 
applicants versus acceptances, roughly the ratio?
    Mr. Vasquez. Roughly right now the ratio is between 9,000 
and 10,000 applicants and approximately, if I recall 
correctly--I will be glad to provide you more specific 
information--I think 3,000 to 4,000 ultimately that are invited 
to be trainees.
    Senator Dodd. So somewhere between one in three, one in 
four, is the ratio of applicants to acceptances, roughly. Is 
that right?
    Mr. Vasquez. Yes, sir. I think that is, if I am--yes. I 
will be glad to provide some additional information.
    Senator Dodd. Let me know if I have the wrong share on 
that. I was just curious what that number is.
    Mr. Vasquez. Certainly.
    Senator Dodd. Last, let me turn to, if I can, because you 
talked about it, the Peace Corps National Advisory Council, 
which was established in 1985. And I know that, you know, this 
is--you know, anybody who is heading up, the last thing some 
people want is enough--you have Members of Congress picking at 
you and the administration. An advisory council can be 
threatening to some degree, although I think it can be of 
tremendous value. That is why we established it. But it has 
been basically a nonfunctioning organization since it was 
called for back some 17 years ago.
    I mentioned 165,000 return volunteers in every imaginable 
walk of life. And while we deal with the group such as the 
National Peace Corps Association and others, having an advisory 
committee to function and provide aid and assistance to the 
organization itself, I think, could be a very strong feature. 
You would, of course, continue to serve on the council, as 
would Jodie Olsen, in that capacity.
    Would you expand your thoughts and views on this, on how 
you think you would benefit from a functioning advisory council 
rather than just one in name only? And what are your intentions 
regarding that?
    Mr. Vasquez. Well, thank you, Mr. Chairman. I appreciate 
that question, because it is one that I have given a lot of 
thought to. I have had the personal privilege of serving on a 
number of national advisory boards for organizations, and I 
know they can be valuable. Sometimes I have probably been, some 
would attest, a bit of an annoyance as an advisory board member 
of some of those organizations, but you ask the questions and 
you want to be engaged because you care about the organization.
    Since arriving at the Peace Corps, I have been examining 
the history of how directors have used the advisory board that 
is in the act. And it, frankly, runs the gamut. Some have been 
very active. Others have not. It has been dormant for a number 
of years. I do believe that there is some viability and a place 
for a good, solid advisory board to be a participant, to help 
us, frankly, not only to give us insight about what we are 
doing, what we can do better, but frankly also assist us in 
elevating the profile of the Peace Corps.
    As I think you and I have discussed, one of the goals that 
we have is to reacquaint the American public with the Peace 
Corps. Frequently people say to me, well, you know, I did not 
even know the Peace Corps existed. What do they do these days? 
What kind of programs are they involved in? So an advisory 
board could serve a valuable purpose.
    What I would certainly advocate is an advisory board that 
would be representative of the cross-section of America, 
representing various diverse interests. And I do note that in 
the act that establishes the current advisory board, it does 
provide for 15 members. Seven of those members would be return 
Peace Corps volunteers and represent a cross-section of the 
community, no more than 8 of one political party. So there is a 
structure in place that I think is workable.
    I, to be frank with you, have not completed my total 
assessment of that function. But I think it is manageable. And 
I think there could be some very, very positive outcomes as a 
result of that involvement.
    Senator Dodd. Well, thank you. I will include in the record 
here--I think it must be the Peace Corps Web page \1\--I 
believe it is the Peace Corps Web page--that lists a rather 
lengthy list of people who are called notable.
---------------------------------------------------------------------------
    \1\ The Web site can be accessed at www.peacecorps.com
---------------------------------------------------------------------------
    Mr. Vasquez. Yes, sir.
    Senator Dodd. That is not a self-description, I hope. But 
people who have done various things in all sorts of fields.
    Mr. Vasquez. I certainly hope that you were on there, Mr. 
Chairman.
    Senator Dodd. What is that?
    Mr. Vasquez. I certainly hope that you were on that list, 
if you are checking our Web site.
    Senator Dodd. I am not going to check it. I am afraid I 
might not find myself there. But this is a good list of just 
some ideas of people in arts and literature and so forth that I 
think are wonderful examples of what--and that is people that 
are notable. There are a lot of return Peace Corps volunteers 
who may not make a list of notables but are doing very notable 
things.
    Mr. Vasquez. Indeed.
    Senator Dodd. And that will take a little affirmative 
action, if you will, to reach out and try to find people who do 
not necessarily step up and fill out questionnaires about what 
they are doing. But there are wonderful people out there who 
are making a huge contribution, really care about this 
organization very deeply. And I strongly urge you to look at 
them.
    Last, let me turn to the issue of the Corporation for 
National and Community Service, which is included in the bill. 
And this is a bit of a different idea. I will be the first to 
admit it. It is unique in its proposal, and that is, you know, 
the idea to provide some moneys to nonprofit corporations 
established by return volunteers as a way to promote the 
continued service of volunteers.
    Do you have any comments you want to share about that 
concept or idea?
    Mr. Vasquez. No, Mr. Chairman. Well, I have--I will qualify 
my comments by indicating that I do not want to represent the 
National Corporation for Service, because I think they will 
probably have some comments at some point. However, just in 
general, I would like to offer this perspective. And that is 
that I know that you are committed, and I know Congressman 
Shays is committed, and Senator Chafee is committed, and I am 
committed to protecting the integrity of the Peace Corps as an 
agency, as an entity that has built an incredible reputation 
over 41 years.
    I think--and again, I base this on my experience of having 
been involved with foundations, advisory boards, and whatnot, 
who have expanded and who have had groups grown out of core 
organizations. And that is that one must be very, very careful 
so as to protect the integrity of the name Peace Corps, in that 
while there are many well-intentioned folks who would want to 
become involved in this kind of a program--and I think it might 
serve a positive purpose--the important thing is to make sure 
that there is accountability so that there is no confusion 
amongst the donor community, the support community, as to who 
is the Peace Corps and who is not the Peace Corps.
    And I want to say as an example I applaud Dane Smith 
because I notice on his literature that he makes reference to 
the fact that NPCA is not part of the Peace Corps, a Federal 
agency, but is an association. I think it is important for 
people to know the difference as they make decisions about 
contributing dollars and investing their talents and skills to 
these efforts.
    So that is the only observation I would make that would be 
important in any kind of a process that would involve expanding 
funding programs that would represent or suggest Peace Corps.
    Senator Dodd. Maybe I should make it clear, and staff has 
reminded me here, we do not take any moneys out of the Peace 
Corps budget for this purpose.
    Mr. Vasquez. Understood.
    Senator Dodd. So we are not competing in that sense. But, 
believe me, we have struggled over the years with this goal of 
the Peace Corps and how to engage a willing group of people, 
many of whom were willing to begin with; they joined the Peace 
Corps for that purpose. Some may not have been. But because of 
the Peace Corps experience they have wanted to find some way to 
continue their service in a way that would be constructive.
    And we have grappled with this over the years to find some 
sort of a structural mechanism that will allow for return 
volunteers to be able to utilize their talents in a way that 
would contribute at home to the goals of the Peace Corps. And 
this is just one such idea as a way to find some framework by 
which they could fit back into the process.
    With that, we have been joined by my colleague from Rhode 
Island. And I thank him for coming over. I have completed my 
questions. So we have been joined by the Congressman from 
Connecticut, a former volunteer as well. I think you know Chris 
Shays. I think you know each other, hope you do.
    Senator Chafee. You have said, Mr. Chairman, that one way 
to continue your years of service to your country after the 
Peace Corps is to do as these two gentlemen did and run for 
office.
    Senator Dodd. I am not sure the Peace Corps would like to 
fund that, though.
    Senator Chafee. Speaking of funding, before I turn it 
over----
    Senator Dodd. Is it campaign finance reform? Do you think 
we could include that as a part of the budget each year?
    Any comments, Senator, or questions?
    Senator Chafee. Just one. I know Congressman Shays has been 
here for awhile, and I just came in.
    But does the Peace Corps have any kind of endowment of its 
own where alumni might contribute?
    Mr. Vasquez. No, Senator, we do not have any kind of an 
endowment. We certainly have foundations that participate with 
us on specific programs. Like the Gates Foundation, AOL, 
participates with us on programs. But there is no endowment per 
se.
    Senator Chafee. And alumni who have done well after their 
time in the Corps, and who might want to help the Peace Corps 
and future volunteers, are encouraged to give to these 
foundations?
    Mr. Vasquez. Well, in some cases many return Peace Corps 
volunteers involve themselves with local chapters of the NPCA 
or the return Peace Corps volunteer community. And there are 
partnership projects where they are able to fund projects that 
volunteers submit on our Web page that we are then able to then 
identify some funding and make that connection. But usually 
that comes from a chapter or--as an example, in Chicago there 
is a strong return Peace Corps volunteer community that raises 
dollars, which are then sent out to projects that volunteers 
are working on overseas.
    Senator Chafee. And in the long 41-year history--is that 
correct?
    Mr. Vasquez. Yes, sir.
    Senator Chafee. As you have testified, the President's 
initiative to double the number of volunteers means the budget, 
of course, is going to go up. Is there any preclusion to 
establishing some sort of alternative means of reaching this 
funding level? Can we be creative and consider some kind of 
endowment, or is that forbidden by the charter?
    Mr. Vasquez. Well, there are some limitations and 
prohibitions on how we can seek funding. However, we do have an 
Office of Private Sector Enterprise in the Peace Corps that has 
done a good job in the past of establishing some partnerships 
with organizations like AOL, the foundation, like the Gates 
Foundation, Hewlett-Packard and others. And we certainly look 
to the opportunities of maybe expanding those kinds of 
relationships that might provide some funding for global 
programs that we are doing.
    Senator Chafee. Well, I wish well and hope you are 
successful.
    Mr. Vasquez. Thank you very much, Senator.
    Senator Dodd. Congressman Shays.
    Congressman Shays. Thank you, Mr. Chairman. I really 
appreciate your courtesy in allowing me this opportunity. I am 
somewhat reluctant to ask questions of the Director, since he 
is my wife's boss. And I just want to say----
    Senator Dodd. Perfect time, it seems to me.
    Congressman Shays. I just want to say that whatever I say 
should not be held against her.
    Mr. Vasquez. All right, sir.
    Congressman Shays. And just say to you that Chris and I 
have had conversations about this in the past. At one time the 
Peace Corps was part of Action, I think. And, you know, you had 
the domestic and you had the international. And it was under 
this thumb of Action. And it proved to be quite unacceptable. 
And it took away the spirit and the independence of the Peace 
Corps.
    So when Senator Dodd asks you about the concept of 
independence, I guess I would like to know that no matter who 
tried to compromise the independence of the Peace Corps, could 
I feel assured that you would stand up to whomever that may be, 
no matter how powerful that person or persons might be, to 
maintain the independence of the Peace Corps?
    Mr. Vasquez. Congressman, you have my commitment that I 
would defend the independence of the Peace Corps within the 
executive branch of Government. I believe in that. I think it 
is important. And it is important to our future. It is 
important to our success.
    Congressman Shays. And the only other question I wanted to 
ask is: It is my understanding, and Chris really drove that. 
But when I have expressed my concern about the USA Freedom 
Corps, it was made clear to me that this is an organization 
where people can come to learn about all the places they can 
serve. And one of the places is the Peace Corps.
    Therefore, the logic of not allowing them to talk about 
possibly being able to serve in the Peace Corps would be kind 
of crazy. In other words, we want, when people contact the USA 
Freedom Corps, that the Freedom Corps can say, you know, one of 
the places you may want to go is the Peace Corps. And that it 
has no control over your budget. It has no control over your 
management. It has no control over the Peace Corps whatsoever. 
Is that your understanding?
    Mr. Vasquez. That is my understanding, Congressman.
    Congressman Shays. And if you found that to be different in 
the future, you would rise up in arms against any possibility 
that it would play a greater role?
    Mr. Vasquez. I would certainly seek to articulate and 
advocate for the position of its independence because I think 
it is important. It is part of what makes the Peace Corps a 
unique agency. And I would argue vigorously that it needs to 
maintain its independence and needs to move in the same kind of 
framework that exists today and that that should not be changed 
or altered.
    Congressman Shays. And just as I do not want you to be 
influenced by or controlled by any political entity or any 
Government agency, I just would say that I think the advisory 
group that you have established should be nothing more or 
nothing less than an advisory group.
    Thank you.
    Mr. Vasquez. Thank you, Congressman.
    Senator Dodd. Just to make the point again, because the 
independence of the Peace Corps is not a voluntary conclusion, 
it is a legal conclusion, even though we passed legislation a 
number of years ago because of what had happened. I did not 
raise it with you here because there is no reason to at this 
point. But just to--back a few years ago, we had those who 
wanted to turn the country directorships--it was a wonderful 
opportunity to take care of some good friends politically. And 
it came to a screeching halt.
    But nonetheless, there was a real program under way to--
people who would not necessarily qualify to be an ambassador in 
people's minds through a confirmation process, they were put in 
country directorships. And that was just clearly an over-
politicization of the institution. That stopped, and I know you 
have made a commitment that that would not be the case at all 
under your leadership. And I appreciate that very much.
    Mr. Vasquez. Thank you, Mr. Chairman.
    Senator Dodd. Well, Gaddi, we will leave the record open 
for others who may have some questions for you. We are very 
much interested in having you back with us as soon as we can. 
We would like to mark this bill up here. We do not have a very 
long session left here. And there are some windows to get some 
things done. So we would like to move forward with legislation.
    It would be very important, obviously, to have the input of 
the administration, you particularly, on the bill. So as soon 
as we can get that, we would appreciate that very much.
    Mr. Vasquez. OK. Thank you, Mr. Chairman.
    Senator Dodd. And we thank you for appearing here today.
    Mr. Vasquez. Thank you.
    Senator Dodd. Our second witness, Mark Schneider, is the 
former Director of the Peace Corps. He is the vice president of 
the International Crisis Group.
    And, Mark, we are very honored to have you here. Mark and I 
have known each other a long time and he worked here on the 
Senate side, worked for Senator Kennedy, and of course was the 
Director of the Peace Corps, a former Peace Corps volunteer 
himself. And did a tremendous job with some very innovative and 
creative programs that were authored under your stewardship, 
Mark. And so it is a pleasure to have you here.
    You have known the institution. You have worked with it for 
many, many years, in addition to your service as Director. But 
long prior to that, your interest and involvement with the 
Peace Corps is something we have all appreciated immensely. So 
we are honored to have you here today and interested in hearing 
your testimony.

   STATEMENT OF MARK SCHNEIDER, FORMER DIRECTOR OF THE PEACE 
CORPS; VICE PRESIDENT, INTERNATIONAL CRISIS GROUP, WASHINGTON, 
                               DC

    Mr. Schneider. Thank you very much, Senator Dodd. It is a 
privilege to appear before you and the members of the committee 
today to testify on the importance, value, and heightened need 
of the Peace Corps in the post 9/11 world. And let me say at 
the outset that I support the fundamental purpose of the Peace 
Corps Charter for the 21st Century Act to double the size of 
the Peace Corps to 15,000 volunteers over the next 5 years.
    As Director, I was proud that we had moved toward the 
congressionally mandated goal of achieving 10,000 volunteers. 
When I left the Peace Corps, we had already matched the highest 
number of Peace Corps volunteers in the field in 27 years, some 
7,300.
    And at that time, we had a strategy to get to 10,000. We 
did not have the funding, but we had the strategy. And 
hopefully now with this bill, the funding will be available to 
go beyond that.
    I applaud President Bush's decision to restore the Peace 
Corps to the highest levels in the 1960s. And I am sure, and we 
have heard, that the new Director, Gaddi Vasquez, is working to 
implement that decision and working to do it in a way that 
maintains the core values of the Peace Corps.
    We also celebrated the 40-plus-one anniversary of the 
establishment of the Peace Corps this last weekend. And I am 
sure we also commend the Bush administration for its 40th 
anniversary gift to us. Of course, Sarge said it should be 
50,000, not 15,000, but----
    President Kennedy's idea of a Peace Corps to join the 
struggle of people in developing countries across the globe and 
to strengthen international understanding appealed to young 
Americans on campuses all across the Nation. And as you have 
said, as volunteers we may have contributed a little something 
to our host community and to our host country. But we were the 
greatest beneficiaries of that experience. And we brought that 
knowledge back home.
    As a volunteer, I learned of the realities of poverty in El 
Salvador, of the way that repression denies human dignity, and 
the courage of men and women who risk everything to give their 
children a better life. And I can attest, after four decades 
and after visiting volunteers in 21 countries as Director, that 
they, too, not only are contributing but are learning skills, 
leadership, and international awareness in what may be the most 
effective graduate education program ever conceived.
    Sarge once said that ``the road to peace is no highway. It 
is wracked with wars, riddled with mistrust and suspicion. And 
if humanity ever hopes to pave this road, it must accomplish an 
understanding even deeper and more durable than the world has 
ever known.'' The Peace Corps has been trying to pave that road 
ever since.
    On my trips, I met a half dozen government ministers who 
were students, colleagues, or friends of volunteers. And we 
have to ask ourselves how many millions of students have been 
taught by volunteers or whose teachers were trained by 
volunteers? I knew the director of the WHO campaign that 
eradicated smallpox from Ethiopia. And he told me it never 
would have succeeded without the Peace Corps.
    So you have to ask how many men and women are alive today 
because volunteers were part of the immunization campaigns to 
eradicate small pox and polio and measles. And how many 
families avoided death from diarrheal disease because 
volunteers have explained in 180 different languages how to 
avoid waterborne disease.
    I know that after 9/11 there were some who asked whether 
the Peace Corps is still needed, is still safe, is still a 
priority. My answer is yes, yes, and yes. Peace Corps 
volunteers still are needed at the development core of our work 
in carrying out the first goal of the Peace Corps--teaching in 
classrooms, carrying health and nutrition messages to distant 
villages, and working with farmers to find more sustainable 
ways of growing food.
    And volunteers are also on the cutting edge of change. They 
are answering the challenge of globalization by bringing 
computers and information technology to the task of 
development, not only in the cities but in rural villages as 
well. They are answering the challenge of HIV/AIDS by carrying 
education and prevention awareness throughout sub-Saharan 
Africa.
    I am proud that as Director I required that every volunteer 
in Africa be trained in HIV/AIDS prevention education. And last 
year I have been told volunteers reached more than 370,000 
people with HIV/AIDS prevention education activities. This 
bill's proposal to train more volunteers in addressing global 
health risks is to be commended, obviously with the caveat that 
the training must be appropriate to the country in which they 
are serving.
    Volunteers also are beginning to play a role in countries 
coming out of civil conflict. In most instances, Crisis Corps 
volunteers begin that process. Experienced volunteers can be 
brought back to help countries respond to natural disasters and 
to also help countries respond to the aftermath of the 
conflict.
    One way, it seems to me, that we can help increase the 
capacity of the Peace Corps is to increase the capacity of 
Crisis Corps. And it seems to me that we might look at how to 
do that.
    We know that there are jobs waiting for volunteers. We know 
that there are countries who want volunteers to fill those 
jobs. And I am pleased that the bill recognizes that upping the 
number of volunteers in a 5-year authorization requires 
increases in funds for staff in the countries, in Washington, 
in our recruiting centers, as well as for strengthening program 
quality and strengthening the measures that assure the safety 
and security of volunteers.
    Also with respect to recruiting, I think it is important to 
recognize that the bill's provisions to have a modest increase 
in the amount of the adjustment allowance provided to 
volunteers and to explore the possibility of student loan 
forgiveness can also be important incentives.
    Currently, only the Perkins Student Loan Program provides 
for a volunteer reducing his or her repayment by 15 percent for 
each of the 2-years that they serve. Otherwise, there is no 
reduction in the debt owed as the result of Peace Corps 
service. So I am pleased the committee is looking at that.
    I also would urge the committee to consider measures to 
strengthen and expand the Master's International Program. It is 
a marvelous concept. I wish that I could take credit for it, 
but it was there when I arrived. It provides for applicants to 
apply both to the Peace Corps and to graduate school. A 
participating university accepts the applicant and the Peace 
Corps accepts the applicant. All the course work is done in the 
first year. And then the volunteer enters the Peace Corps. When 
he or she returns after 2 years, they have a master's degree as 
well.
    It is a marvelous way to get more specialized volunteers 
into the Peace Corps. And I think with some modest incentive 
funding, that we could expand the program significantly--there 
are only 40 colleges and universities who currently 
participate. They essentially receive no additional funding 
with respect to this program.
    Peace Corps volunteers also are the best way to convey an 
understanding of who we are as a people, which is the second 
goal of the Peace Corps. It is even more crucial in a world 
where the United States is the last remaining super power and a 
lightening rod of envy for too many raised in frustration and 
incapable of coping with the clash of modern and traditional 
cultures.
    I thought about our volunteers, obviously, after 9/11. And 
I asked what was the reaction. And in many cases, just as when 
we were volunteers, volunteers are the only way that people in 
those villages or communities could convey their sympathy about 
what had occurred.
    In Jordan, a Peace Corps teacher received this letter from 
her Palestinian student. ``Please accept our, the class and I, 
condolences and our deepest sorrow toward evil acts that took 
place in the United States. May God bless the victims, their 
family, and their loved ones. After all, we are all citizens of 
the world.''
    In China, a volunteer had to teach class soon after she 
learned of the attack. As usual, she started to write a word on 
the board at the start of the class that they could all 
discuss. Flustered, she just wrote the word ``terrorism.'' The 
whole class of students immediately starting crying. They stood 
and each hugged her, saying how sorry they were for her, for 
her family, and for America. This public expression of emotion 
was, as she wrote, ``not normal,'' in China. And the response 
of her students was deeply moving to her.
    When Walter Cronkite was asked what one could do to answer 
the terrorists, he responded, ``Join the Peace Corps.'' And 
what he meant, I think, are three things. First, that we have 
to engage around the world even more than in the past. And 
there is no better way for individual Americans to engage than 
by joining the Peace Corps.
    Second, we still have to break through the mythology about 
this country and the misconceptions about our people. And the 
Peace Corps remains the very best way to accomplish that 
mission as volunteers live, work, and play with their host 
country colleagues.
    And third, we need to find more ways to help nations break 
through the constraints of poverty and equality, repression, 
and fear. Peace Corps does work to reduce those conditions. And 
while we may not be able to eradicate them entirely, it is also 
worthwhile that others see us trying harder.
    That message in a way also underscores the rationale for 
the independence of the Peace Corps, which I am pleased to see 
underlined in bright letters within the proposed legislation. 
It is not merely that the Peace Corps must maintain its own 
independence in every sphere as you indicated is legally 
required, but it has to be seen that way by other governments 
and other peoples.
    Every Secretary of State has sent a message to ambassadors 
around the world reaffirming the independence of the Peace 
Corps. And let me just quote the 1983 cable from the Secretary 
of State at that time. ``To be effective, the Peace Corps must 
remain substantially separate from the formal day-to-day 
conduct and concerns of foreign policy because of its unique 
people-to-people character.''
    As former Secretary of State Rusk wrote to the chiefs of 
the U.S. missions, ``To make the Peace Corps an instrument of 
foreign policy would be to rob it of its contribution to 
foreign policy.''
    It seems to me that this legislation should seek to do 
whatever it can to maintain and strengthen the independence of 
the Peace Corps in every possible way. And I am pleased to have 
heard the dialog that took place earlier.
    In relation to the third goal of the Peace Corps, helping 
improve our awareness and understanding of the peoples and 
nations around us, our PCVs, like those who came here this past 
weekend, have been engaging their communities and their nations 
in ways even President Kennedy never would have imagined.
    It happens naturally. But a few important programs have 
developed to enhance that experience--World Wise Schools is one 
of the best; the National Peace Corps Association, now the new 
Peace Corps Fund; and other RPCV organizations around the 
country.
    My one suggestion about the proposal in the bill that 
provides some direct funding for such groups through the 
Corporation for National and Community Service would be to make 
it even broader so that any organization of RPCVs would qualify 
for direct funding with a proposal for its community activity 
without necessarily going through any particular intermediary.
    And with respect to the third goal, I also would urge the 
committee to examine how best to strengthen the Peace Corps 
fellowship program so that those who want to participate in the 
program can do so. RPCVs who want to go to graduate school can 
get some of their tuition covered if they make a commitment to 
work in underserved communities for 2 years while they get 
their degree. That would be an additional way to strengthen the 
involvement of RPCVs in the third goal.
    Mr. Chairman, President Kennedy said, ``Peace does not rest 
in the charters and covenants alone. It lies in the hearts and 
minds of all people.'' The Peace Corps has been helping to 
build that peace. The bill before the committee can help give 
countless other Americans the chance to become part of this 
magnificent 40-year legacy of making a difference.
    Thank you.
    [The prepared statement of Mr. Schneider follows:]

 Prepared Statement of Hon. Mark Schneider, Former Director, The Peace 
                                 Corps

    Mr. Chairman, it is a special privilege to appear before you and 
the members of this Committee to testify on the importance, value and 
heightened need for the Peace Corps in the post 9/11 world.
    Let me say at the outset, I strongly support the fundamental 
purpose of the ``Peace Corps Charter for the 21st Century Act'' 
introduced by you, Mr. Chairman, and others here in the Senate and its 
companion in the House of Representatives to double the size of the 
Peace Corps to 15,000 Volunteers over the next five years. As Director, 
I was proud that we had moved toward the congressionally mandated goal 
of achieving 10,000 Volunteers. When I left the Peace Corps, we already 
had matched the highest number of Peace Corps Volunteers in the field 
since 1974--7,300.
    Now I am sure the same bipartisan coalition, led by you and the 
other RPCV members of Congress, supported by Senator Ted Kennedy and 
others, will help President George W. Bush restore the Peace Corps back 
to the highest levels of the 1960s. I applaud his decision and his 
recognition of the Peace Corps contribution to development, 
understanding and peace around the world.
    Just this past weekend, we all celebrated the fortieth plus one 
anniversary of the establishment of the Peace Corps. I commend the Bush 
Administration for this 40th anniversary initiative. Of course, Sarge 
said it should be 50,000 not 15,000.
    In October 2000, as a Peace Corps Director, I stood at the student 
union on the campus of the University of Michigan at 2 a.m., where 40 
years earlier, then candidate John F. Kennedy launched the idea of the 
Peace Corps. On March 1, 1961, he signed an executive order creating 
the Peace Corps and a few months later Congress followed with the Peace 
Corps Act to complete that call to service and international 
engagement. Even as it was being passed, the Peace Corps' first 
director, the Honorable R. Sargent Shriver, had the first Volunteers on 
their way to Ghana and Chile and the Philippines.
    The idea of a Peace Corps to join the struggle of people in 
developing countries across the globe and to strengthen international 
understanding, appealed to young Americans on campuses all across the 
nation. Now 165,000 Volunteers have served in 135 countries. As you 
have said frequently, Senator, as Volunteers we may have contributed a 
little something to our host community and to our host country; but we 
were the greatest beneficiaries of that experience. And we brought that 
knowledge back home.
    As a Volunteer, I learned of the realities of poverty in El 
Salvador, of the way that repression denies human dignity, and of the 
courage of men and women who risk everything to give their children a 
better life.
    I can attest, that after four decades, after visiting Volunteers in 
21 countries as Director, that they too not only are contributing but 
also are learning skills, leadership and international awareness in 
what may be the most effective graduate education ever conceived.
    Sarge Shriver said, ``The road to peace is no highway. It is racked 
with wars, riddled with mistrust and suspicion . . . If humanity ever 
hopes to pave this road, it must accomplish an understanding even 
deeper and more durable than the world has ever known.''
    The Peace Corps has been trying to pave that road ever since.

  <bullet> On my trips, I met a half dozen government ministers who 
        were students, colleagues and friends of Volunteers. Ask 
        yourselves, how many million students have been taught by 
        Volunteers, or whose teachers have been trained by Volunteers?

  <bullet> The Director of the WHO campaign that eradicated smallpox 
        from Ethiopia told me it never would have succeeded without the 
        Peace Corps. How many men and women are alive today because 
        Volunteers were part of the immunization campaigns to eradicate 
        smallpox and polio and measles?

  <bullet> How many families have avoided death from diarrheal diseases 
        because Volunteers have explained, in 180 different languages, 
        how to avoid waterborne diseases?

    As Director I was privileged to witness the dedication, energy and 
ingenuity that Volunteers were bringing to their communities. After 9/
11, I know there were those who asked whether Peace Corps is still 
needed, is still safe, is still a priority.
    My answer is yes, yes, and yes. Peace Corps Volunteers still are 
needed at the development core of our work in carrying out the first 
goal of the Peace Corps' teaching in classrooms, carrying health and 
nutrition messages to distant villages, and working with farmers to 
find more sustainable ways of growing food.
    Today's Volunteers also are on the cutting edge of change.
    <bullet> They are answering the challenge of globalization by 
bringing computers and information technology to the task of 
development--not only in the cities but also in rural villages.
    <bullet> They are answering the challenge of HIV/AIDS by carrying 
education and prevention awareness throughout sub-Saharan Africa. I am 
proud to have required that all Volunteers in Africa be trained in HIV/
AIDS prevention education--last year Volunteers reached more than 
376,000 people with HIV/AIDS prevention education activities. And the 
bill's proposal to train more Volunteers on addressing global health 
risks is to be commended, but with the caveat that the training 
obviously must be appropriate to the Volunteer's country of service.
    <bullet> And Volunteers also are beginning to play a role in 
helping countries coming out of civil conflict find a new future. In 
most instances, Crisis Corps Volunteers begin that process--experienced 
Volunteers who can be brought back to help countries respond to natural 
disasters, so too can they help their countries respond to the 
aftermath of conflict, always after full evaluation and assurance of 
conditions of safety and security.
    I would like to urge a renewed effort to increase Crisis Corps 
capacity to serve in HIV/AIDS support and in post conflict situations. 
More can and should be done.
    We know there are jobs waiting to be done by Volunteers. And we 
know there are countries who want Volunteers to fill those jobs. I am 
pleased that the bill recognizes that upping the number of Volunteers 
and the five-year funding authorization also requires increases in 
funds for staff, in the countries, in Washington and in our recruiting 
centres, as well as for strengthening programs and for strengthening 
the measures that assure the safety and security of Volunteers.
    Also, with respect to recruiting, I want to commend the Chairman 
for including a modest increase in the amount of the adjustment 
allowance provided to Volunteers, and for exploring the possibility of 
greater student loan forgiveness. Currently only the Perkins student 
loan program provides for a volunteer reducing his or her repayment 
obligation by 15% each of two years. Otherwise the current law and 
regulation merely provide for postponing interest payments while in 
Peace Corps.
    I would urge the Committee to consider measures to encourage the 
Master's International program. It is a marvellous concept, which began 
before I arrived but which I tried to strengthen. It provides for 
applicants to apply both for a master's degree program at a 
participating university and to the Peace Corps. Usually, it means all 
of the course work is done in the first year and the Peace Corps 
service occurs in the second and third years and fulfills the thesis, 
or fieldwork requirement. The Volunteer finishes the Peace Corps and 
returns home with a Master's Degree as well. I believe some incentive 
funding could multiply this program far beyond the 40 colleges and 
universities, which currently participate. It also could help attract 
more Volunteers with more specialized training that some countries 
would like to see for specific needs.
    Peace Corps Volunteers also still are the best way to truly convey 
an understanding of who we are as a people. And the second goal of the 
Peace Corps is even more crucial in a world where the Unites States is 
the last remaining super power and a lightening rod of envy for too 
many raised in frustration and incapable of coping with the clash of 
modern and traditional cultures.
    After 9/11, I thought about our Volunteers around the world and 
wondered about the reaction. As in times past, the Volunteers were the 
only way that people in villages around the world could convey their 
sympathy and caring.
    In Jordan, a Peace Corps teacher received this letter from her 
Palestinian student: ``Please accept our, the class and I, condolences 
and our deepest sorrow toward evil acts that took place in the United 
States. May God bless the victims, their family and their loved ones. 
After all, we are all citizens of the world.''
    And in China, a Volunteer had to teach class soon after she learned 
of the attack. As usual, she started to write a word on the board at 
the start of the class that they all could discuss. Flustered, she just 
wrote the word, ``Terrorism''. The whole class of students immediately 
started crying. They stood and each hugged her, saying how sorry they 
were for her, for her family and for America. This public expression of 
emotion was ``not normal'' in China, and the caring response of her 
students was particularly moving to her.
    When Walter Cronkite was asked what one could do to answer the 
terrorists, he responded, ``Join the Peace Corps.''
    What he summed up in those words was an important lesson for all of 
us:
    First, we have to engage around the world even more than in the 
past and there is no better way for individual Americans to engage than 
by joining the Peace Corps.
    Second, we still have to break through the mythology about this 
country and the misconceptions about our people and the Peace Corps 
remains the very best way to accomplish that mission--as Volunteers 
live, work and play with their host country colleagues.
    Third, we need to find more ways to help nations break through the 
constraints of poverty, inequality, repression, and fear. Peace Corps 
does work to reduce those conditions and while we cannot eradicate them 
entirely, it also is worthwhile that others see us trying.
    That message also underscores the rationale for the independence of 
the Peace Corps, which I am pleased to see underscored in bright 
letters, within the proposed legislation. It is not merely that the 
Peace Corps must maintain its own independence in every sphere but it 
must be recognized by the rest of our government and be seen by other 
governments as fully independent.
    Every Secretary of State has sent a message to Ambassadors around 
the world reaffirming that, and I quote the 1983 cable under President 
Reagan, ``to be effective (Peace Corps) must remain substantially 
separate from the formal day-to-day conduct and concerns of foreign 
policy because of its unique people-to-people character. As former 
Secretary of State Rusk wrote to the chiefs of U.S. missions: `To make 
the Peace Corps an instrument of foreign policy would be to rob it of 
its contribution to foreign policy' . . . .'' From the start Peace 
Corps was to be independent. If anything has protected Volunteers 
across the globe, it has been that separateness. Whatever is done with 
this legislation, maintaining the Peace Corps independence is crucial.
    In relation to the third goal of the Peace Corps, helping improve 
our own awareness and understanding of the peoples and nations of the 
world, Returned Peace Corps Volunteers, like those who came here this 
past weekend, have been engaging in their communities and their nations 
in ways even President Kennedy never would have imagined.
    It happens naturally, but a few programs have developed to enhance 
that experience including Worldwide Schools, the National Peace Corps 
Association, now the new Peace Corps fund and countless other Returned 
Peace Corps Volunteer organizations around the country. My one 
suggestion about the proposal in the bill to help provide for some 
direct funding of such groups through the Corporation for National and 
Community Service would be to make it even broader so that any 
organization of Returned Peace Corps Volunteers would qualify for 
direct financing of its social projects--without necessarily going 
through an intermediary.
    With respect to the third goal, I also would urge the committee to 
examine how best to revitalize the Peace Corps Fellows program, so that 
all those who want to participate in this program can do so. Returned 
Volunteers who want to go to graduate school can get some of their 
tuition covered if they agree to work in an underserved community for 
two years while they get their degree.
    Mr. Chairman, President Kennedy said, ``Peace does not rest in the 
charters and covenants alone. It lies in the hearts and minds of all 
people . . .'' The Peace Corps has been helping to build that peace. 
The bill before the Committee can help give countless other Americans 
the chance to become part of this magnificent 40-year legacy of making 
a difference.

    Senator Dodd. Thank you very, very much, Mark, some very 
good ideas and thoughts. And again, we thank you for your 
service and your good leadership during your directorship.
    Let me ask you how hard you think it is going to be. I 
mean, I raised the issue of what the number of applicants was 
to acceptances to Director Gaddi Vasquez. And I wonder if you 
might share with us, you know, how difficult you think it will 
be. Let us assume we have resources and so forth. But is it 
going to be hard to raise and get the quality of numbers we are 
talking about here? Is it in any way unrealistic?
    Mr. Schneider. I think it is going to be hard. I also think 
it can be done. I think what has been interesting is that every 
time that we have had the resources and the authorization to go 
higher, we have gotten the applications increased. And I think 
that in this case as well, that if we have the resources to 
reach out and do additional recruiting--and I think that 
Gaddi's concern to expand diversity, which is something we have 
been trying to do over the past 10 years--and Paul Coverdell 
started it. When he started, there was about 6 percent of 
volunteers who were from minority backgrounds. We are now at 15 
percent. And I think that we can do better.
    And I think that we have to look at our advertising and 
recruiting efforts. At the same time, I am convinced that we 
can reach those numbers.
    Senator Dodd. Any other particular thoughts on altering the 
recruiting practices in your mind? You mentioned a couple of 
things there. But anything else?
    Mr. Schneider. Well, again, I think that we need to do more 
advertising. I went to the movies the other night and saw the 
Marine Corps had an ad in every movie that you go to. And it is 
voluntarily done by the Motion Picture Association and by the 
Advertising Council of America. It seems to me that they might 
cooperate with the Peace Corps in spreading our message as 
well.
    Senator Dodd. Pick a corps.
    Well, let me ask you about the--in talking about the--I 
mentioned expanding Peace Corps activities in Muslim countries. 
And part of our efforts to better understand and to create 
better understanding of who we are, particularly when you read 
reports of a younger generation and their attitudes, that some 
of these madrasses and other schools the other day in Malaysia, 
stories in I believe one of the national newspapers, about 
schools that very much duplicate what is going on in Pakistan 
and elsewhere, where you get a sense of the level of hatred 
being taught to very young people.
    And obviously, the Peace Corps cannot take on all this 
itself. And public diplomacy at the State Department has to be 
vastly improved. But the Peace Corps can play a role here, it 
seems to me. What thoughts do you have about expanding Peace 
Corps activities in the Muslim world?
    Mr. Schneider. There is no question. And I think there are 
two things there. One is that we already have a significant 
experience in having volunteers in Islamic countries. And we 
need to build on that and take the lessons.
    And the second is that--and again, this goes back to 
diversity--I would suspect that we have not made any efforts to 
reach out to the Islamic community here, specific targeted 
efforts.
    When I was director, I asked what have we done to reach out 
and communicate across the religious spectrum, especially at 
the time of high school. In other words, a lot of times 
families that are very close to their religions, they get a lot 
of their information from their churches or their synagogues or 
their mosques. And yet we have very little communication. It 
seems to me that we could do more, particularly with respect to 
the Islamic community in reaching out.
    Senator Dodd. Good suggestion. The Peace Corps has a modest 
student loan forgiveness program. I wonder if you think it 
should be doing more in this area. And the bill also raises the 
readjustment allowance paid to volunteers for their service 
from $225 each month to $275. Now I am going back a few years 
to my days of volunteer. But I think my readjustment allowance 
was $75.
    Mr. Schneider. I think that is right. But that is $75 for 
each month of service.
    Senator Dodd. And I was a volunteer when Thomas Jefferson 
was President. So that has not gone up much in those years.
    Mr. Schneider. I think that you are absolutely right. I 
think that going up to the level of $275 for each month of 
service is thoroughly appropriate. I also think that we should 
look at the whole range of student loans, provide the 
opportunity to perhaps some reduction in the balance owed by 
volunteers who complete the 2-years of service.
    Senator Dodd. Are you concerned at all about this USA 
volunteer program and the independence of the Peace Corps? Are 
concerns that are being raised by that, based on what you know, 
unwarranted?
    Mr. Schneider. At the outset, I was very concerned. Knowing 
that we have both you and Senator Chafee, I feel less 
concerned. And I think the commitments from Director Vasquez 
earlier today are important.
    I think one has to always--there is a tendency always to 
say, well, gee, it would be more efficient to have all service 
agencies in one department. And there is a tendency sometimes 
for people to move in that direction. So I think you always 
have to be vigilant.
    I remember the phrase, ``Trust, but monitor; trust, but 
verify.''
    Senator Dodd. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman.
    Is there any apprehension on behalf of the Peace Corps 
alumni about doubling the numbers and that entire initiative?
    Mr. Schneider. I think there is concern that it be done in 
a way that assures the quality of the program, and the safety 
of volunteers. And I think that the legislation providing 
additional resources for staff and for programming is 
essential. And I think that as well, going back for a second, 
you mentioned the concern. The return Peace Corps volunteer 
community was very concerned about any effort to reduce the 
independence of the Peace Corps. So I think it is important 
that that provision, those provisions, be in the bill to make 
clear that that shall not occur.
    But I think you are right. You have to be concerned about 
the quality of the programming. And thus far, what I have heard 
is that the assessment missions that have gone out from the 
Peace Corps to look at new countries have said that these are 
our standards, we are not going to jeopardize them. So I think 
we have to continue to press for that high quality.
    Senator Chafee. And I guess following along that same line, 
in my short time here in Congress, everything has been so 
partisan. Is there any--I do not want to put boogeymen where 
there are not any, but is there any apprehension about anything 
partisan to do with this doubling of the Peace Corps?
    Mr. Schneider. Oh, no, no. I think that this is an 
absolutely wise decision in the national interest. And I think 
that we all should support it.
    Senator Chafee. That is good to hear. Yes.
    Thank you.
    Senator Dodd. Thank you.
    Congressman.
    Congressman Shays. Thank you again for the opportunity.
    Mark, you were a great Director of the Peace Corps and 
obviously a wonderful volunteer in your earlier years. I was 
thinking of the allowance as you were raising it. I remember we 
had, my wife and I collectively when we went in Peace Corps, we 
had about $2,000 we put in a mutual fund. When I came back, it 
was $1,000.
    The $1,500 that we each received, I remember putting my 
nice clothes away, packing them away. And when I came back, the 
lapels were too wide; I could not use any of them. And all my 
underwear and all the other clothes, after cleaning on rocks 
for 2 years, were not very serviceable. So I had to buy all new 
clothes. And by the time you did, you did not have anything 
left in your allowance.
    So anything we can do to increase that allowance would 
probably be good. People do not go into the service for the 
allowance, but it is nice to come back and at least be able to 
buy some clothes with it.
    I would be interested to have a sense of the role you think 
any advisory group should play with an organization. And I will 
preface my comments by saying I do not like knowing that if you 
have a grievance against an attorney, the only people you can 
speak to are attorneys. And there is a part of me that rebels, 
thinking that this advisory group of Peace Corps volunteers 
will advise the Peace Corps Director.
    And I am sharing my bias. I would like the full range of 
American creativity to be part of that. And so with my bias 
known, tell me how you argue against why we should have 150,000 
volunteers have a special impact on the Peace Corps.
    Mr. Schneider. I guess there would be two things. One is 
that I would hope that among those 165,000 volunteers you have 
a range and diversity that would reflect the broad reach of the 
American people and that you would get the kind of breadth of 
view that you want.
    And the second is yes, I do believe that in this particular 
instance the special experience of returned Peace Corps 
volunteers can help the agency think through new ideas, can 
give, for example, a Peace Corps Director a sense of how 
something he has proposed is going to work in the field and how 
it is going to--what is the reaction going to be. It is a feel.
    And I think RPCVs have it. I agree with having an advisory 
board of RPCVs.
    Congressman Shays. Have you ever worked with people, 
though, that even though they were Peace Corps volunteers, 
almost put Peace Corps volunteers to shame, candidly? I mean, I 
think of this young man who spoke at Fairfield University, 
graduated 10 years ago. He went to Haiti, and he ended up--a 
young homeless kid, as they call the kids, in Haiti said to 
him, ``Can you promise me that I can go to school?'' And this 
young man out of school said, ``I promise you that you will go 
to school.'' And the next thing, he realizes he had to start 
the school.
    He came back to speak to the graduates 10 years later. I am 
a Peace Corps volunteer, listening to what he has done in the 
last 10 years and saying to myself, this man is magnificent. He 
has Peace Corps through and through, and he is not even a 
volunteer.
    And frankly, one of his themes to his staff was: 
``Difficult, impossible--done.'' And he had all these other 
ways of dealing with these issues. And he talks about a kid who 
every morning gets up and, you know, goes to the bathroom in 
his pants because he sits in a car afraid police are going to 
harm him. And in the morning, he comes and gives him a hug. And 
he says, ``My best laid plans are left. And I have to go change 
my clothes. But I give that kid a hug.''
    All I am trying to say to you is, I would like him, that 
man, to be part of an advisory group to the Peace Corps without 
the special, you know, Peace Corps history. So that is kind of 
what I wrestle with. Why should he not be part of that?
    Mr. Schneider. In that sense, you do not--you have an 
endless board, because there are lots of people who have 
enormous creativity and have done things that are unique. And 
that would be helpful. The difference, it seems to me--and by 
the way, I do not think there is anything that would restrict 
and I hope there would not be anything that would restrict, a 
Peace Corps Director, any Peace Corps Director, from reaching 
out and consulting with anybody they want to.
    But I think that there is a value in having an advisory 
board of RPCVs to bounce things off of because they have gone 
through the Peace Corps experience. And I think that that is 
the reason that I would support it.
    Now I also would say I would like this to be an advisory 
board to the Director so that the Director is the one in a 
sense setting the agenda.
    Congressman Shays. And I hear Senator Dodd say, if you have 
an advisory board, it should be something. And it should not 
just be in statute or whatever and not be somehow involved. I 
guess the question I have is: Would you be open to advocating 
or considering that if you have had overseas experience, that 
you have done things, like this young man has done for the last 
10 years of his life. By the way, not just 2, the last 10 
years--could something like that meet your criteria of someone 
who could advise the Peace Corps and advise the Director? Would 
they have to be--if they had experiences like that, would you 
be open to them?
    Mr. Schneider. There is no question that they would have 
something to offer. I still go back in terms of I would still 
keep it to RPCVs, not so much because the others would not have 
something to offer, particularly the individual that you just 
mentioned, but in terms of the experience of what it is like 
being a Peace Corps volunteer in the institution and then how 
an issue would have an effect.
    Congressman Shays. Thank you, Senator Dodd.
    Senator Dodd. Thank you.
    And, Mark, we thank you immensely. We want you to stay in 
touch with us here. And we appreciate your support of the 
legislation and look forward to your continuing involvement as 
we move forward with the bill. And we look forward to your 
continuing interest in the areas that the Peace Corps has been 
involved in. And we wish you very well with your International 
Crisis Group, as well.
    Mr. Schneider. Thank you.
    Senator Dodd. Our last panel is made up of some very 
valuable people. I mentioned Dane Smith already. And Dane, we 
thank you for being with us today.
    Dane is the president of the National Peace Corps 
Association, a Peace Corps volunteer in Ethiopia back along 
with, I think, the days of Paul Tsongas. You had overlapping 
service, I believe, anyway.
    Mr. Smith. Overlapping. That is correct.
    Senator Dodd. He was there probably, I think, the year 
before you. He went in 1962, I think.
    Mr. Smith. That is correct.
    Senator Dodd. Mrs. Barbara Ferris, who was a volunteer in 
Morocco, Women in Development Coordinator 1987 to 1993, Peace 
Corps in Washington. And Barbara, we thank you. Once again, it 
is nice to have you with us.
    Ms. Ferris. Thank you.
    Senator Dodd. And John Coyne was a volunteer in Ethiopia in 
1962 to 1964. Now you did serve with Paul----
    Mr. Coyne. Right.
    Senator Dodd [continuing]. In those years. He is the New 
York City Regional Manager, 1994 to 2000, Peace Corps in 
Pelham, New York.
    We thank all three of you for being here. What I would like 
to do, if you would, I will ask Bertie to keep an eye on the 
clock here, not to make you live by it, but if you can just 
sort of keep your remarks to around 5 or 6 minutes, so we can 
get to some questions. And if you run over a little bit, do not 
worry about it. But if you could try to keep it within that 
timeframe, I would appreciate it. And we will obviously take 
all of your statements in full. And we thank you all for being 
here.
    Dane, thank you again for a very fine weekend. I am sorry I 
could not participate in all the events. But I know Janice 
O'Connell of my office was on one of the panels on Saturday. 
And I gather from press accounts it sounded like a good old 
Peace Corps party. Having Sarge show up on that motorcycle 
was--he came in on Friday morning. And I know what his age is, 
and, believe me, I wish I had half his energy. And I am half 
his age. He was remarkable. His enthusiasm is contagious.
    So we thank you, Dane, for your fine work this weekend, as 
you have over the years with the National Peace Corps 
Association. We will begin with your testimony.

  STATEMENT OF DANE SMITH, PEACE CORPS VOLUNTEER IN ETHIOPIA 
   (1963-1965); PRESIDENT, NATIONAL PEACE CORPS ASSOCIATION, 
                         WASHINGTON, DC

    Mr. Smith. Thank you very much, Mr. Chairman.
    Congressman Shays, thank you for your kind remarks about 
our conference. We greatly appreciate the participation of both 
you and Janice in our conference.
    It is an honor to appear before this subcommittee to 
represent the National Peace Corps Association and its 
membership. We are a 501(c)(3) organization. And we are the 
only national organization which represents return Peace Corps 
volunteers or RPCVs, former staff of the Peace Corps, and 
friends of the Peace Corps.
    We have 15,000 members in all 50 states. And we have 141 
affiliate Peace Corps alumni groups in 44 of those states. We 
carry out programs in global education, service, and peace-
building. And we have launched a Microenterprise Program 
working with FINCA, the Foundation for International Community 
Assistance, and the Calvert Foundation, to promote investment 
in micro-lending programs for poor countries.
    In early January of this year, two members of the National 
Peace Corps Association, Roger Landrum and David Hibbard, 
convened a small group to formulate ideas to be conveyed to the 
U.S. Congress on a ``new mandate'' for the Peace Corps, namely, 
how to strengthen the agency and position it for greater 
effectiveness in the post-September 11 world. NPCA leaders, 
including Pat Reilly, soon to become chair of the NPCA board of 
directors; Ed Crane, our advocacy coordinator; and I joined 
this group.
    And immediately after the State of the Union Message, our 
group, which had reached a kind of consensus on our views, 
submitted recommendations at the request of offices in the 
Senate and the House, including your office, Mr. Chairman. And 
we have since participated in consultations on the draft 
legislation before it was introduced with staff of this 
subcommittee.
    For the Peace Corps family, September 11 underlined more 
than anything else the vital importance to our security and 
well-being of America's positive engagement with the rest of 
the world. No aspect of America's engagement with the world 
over more than 40 years has been more positive and effective 
than the Peace Corps. It has had a positive impact on 135 
countries already, with many more to come.
    Moreover, 165,000 Americans have served in the Peace Corps 
over this period. These Americans return still fired with a 
passion for service, which they undertake in their own 
communities in the United States, nationally or 
internationally.
    As you pointed out, Mr. Chairman, we have just completed a 
national conference celebrating the 40th anniversary of the 
Peace Corps, a conference which brought together 2,000 Peace 
Corps alumni to Washington. And the main question before this 
conference was: How can the Peace Corps and Peace Corps alumni 
make an even more effective contribution to a peaceful world 
through grassroots development and the promotion of harmony and 
understanding among peoples of different ethnicities and 
religion?
    Mr. Chairman, we believe that this bill goes a considerable 
way toward answering this question and that it should be 
supported by a strong bipartisan majority. Having examined an 
initial draft of the legislation and aware that the bill was 
likely to undergo some further change, the National Peace Corps 
Association board of directors last month adopted a set of 
general principles it wanted to see reflected in the 
legislation in its final form, so as to enable the Peace Corps 
and its alumni to address new challenges of peaceful grassroots 
development in the 21st century.
    And these principles very briefly are support for President 
Bush's proposal to double the number of volunteers over 5 years 
in the context of volunteer security, quality programming and 
placement, and broader, more innovative, initiatives of people-
to-people development assistance.
    Second, the historic independence of the Peace Corps from 
other agencies of foreign policy and from any and all forms of 
intelligence gathering. Third, a well-funded strategic planning 
unit within the Peace Corps. Fourth, a streamlined bipartisan 
advisory council to the Peace Corps composed of Peace Corps 
alumni representing a broad range of international knowledge 
and relevant career expertise. Fifth, an RPCV innovation fund 
providing grants to support selected innovative projects and 
programs proposed by return Peace Corps volunteers, both 
domestic and international projects, which are consistent with 
the goals of the Peace Corps.
    A restructured Crisis Corps that better utilizes the career 
expertise of return volunteers to extend the mission and goals 
of the Peace Corps into challenging new contexts of peaceful 
development in the 21st century. And finally, a new era of 
collaboration between the Peace Corps agency, the National 
Peace Corps Association, other Peace Corps alumni 
organizations, and initiatives and other international 
volunteer programs.
    Mr. Chairman, the NPCA considers that this bill is 
consistent with the mandate principles we have formulated. And 
therefore, we strongly support its passage. We believe that the 
bill, if enacted, would provide a strengthened mandate for the 
Peace Corps and important suggestions about how the agency can 
be strengthened.
    We particularly favor the important role envisaged for 
return Peace Corps volunteers in contributing to a strengthened 
agency. There are 165,000 Americans who have served in the 
Peace Corps. They have brought knowledge and experience back 
from that service. And they continue to serve in their own 
communities, as well as overseas.
    And I want to emphasize how pleased we are with the 
commitment of Peace Corps Director Gaddi Vasquez to draw on the 
insight and talents of our PCVs in moving the Peace Corps 
forward and to the formation of the working group that he has 
mentioned.
    In closing, I would like to make a few comments on section 
10 concerning the Peace Corps Innovation Fund. The National 
Peace Corps Association has been promoting service initiatives 
of the kind envisaged for the proposed fund for more than 15 
years. In 1986, we first awarded the Sargent Shriver Award for 
Outstanding Humanitarian Service. And in the intervening years, 
this award has been given to Peace Corps alumni who have done 
such things as establish a family hospital in Appalachia or an 
eye clinic in Haiti or carrying on reconciliation between 
warring ethnic groups in Bosnia.
    This year the award was just given to Molly Melching, who 
through her Senegalese NGO Tostan has brought about decisions 
in hundreds of Senegalese villages to halt the practice of 
female genital cutting.
    A second award, we also confer the Loret Miller Ruppe Award 
annually to an NPCA affiliate group for group service projects. 
And in recent years, the Ruppe Award has been given for such 
projects as a mentoring program at a high school in inner city 
Chicago, which includes a carefully tailored three-week visit 
to West Africa for several students or conflict resolution work 
in civil war-ravaged Sierra Leone and efforts by Ethiopia and 
Eritrea returned Peace Corps volunteers to encourage a peaceful 
resolution of the war that broke out between Ethiopia and 
Eritrea in 1998.
    We not only encourage such projects, Mr. Chairman, but we 
are beginning to provide funding for them. The NPCA has just 
launched a program of continuation of service grants, seed 
money to be made available for projects undertaken domestically 
or internationally by our affiliate groups under a set of 
criteria endorsed by our board of directors. During the 
conference which just ended, we raised $10,000 to support the 
continuation of service grants.
    In anticipation that this legislation will be enacted, the 
National Peace Corps Association is proceeding with planning 
for organizing a separate nonprofit corporation which would 
meet the criteria established in section 10. We expect to draw 
on the talents of our new mandate group led by Roger Landrum 
and Dave Hibbard and on others with experience in particular 
project areas and in project design and evaluation.
    And we anticipate that the new entity would give emphasis 
to projects for educating Americans about the developing 
countries, for AIDS education, for community, national, and 
international service, including youth service programs, and 
for conflict resolution.
    And so, Mr. Chairman, the NPCA supports this bill, the 
Peace Corps Charter for the 21st Century Act, and intends, with 
its affiliate groups, to work hard for its passage.
    Thank you very much.
    [The prepared statement of Mr. Smith follows:]

          Prepared Statement of Dane F. Smith, President, NPCA

a peace corps charter for the 21st century--views of the national peace 
                           corps association
    Mr. Chairman. I am Dane Smith. President of the National Peace 
Corps Association, It is an honor to appear before this Subcommittee to 
represent the National Peace Corps Association and its membership. The 
NPCA, a 501(c)(3) organization, founded in 1979 as the National Council 
of Returned Peace Corps Volunteers and incorporated in the State of 
North Carolina, is the only national organization which represents 
Returned Peace Corps Volunteers (RPCVs), former Staff of the Peace 
Corps and Friends of the Peace Corps. The NPCA has 15,000 members in 
all 50 states and has 141 affiliate Peace Corps alumni groups in 44 of 
the 50 states. The NPCA carries out programs in global education, 
service, and peace-building and has just launched a Microenterprise 
Program, in collaboration with the Foundation for International 
Community Assistance (FINCA) and the Calvert Foundation, which promotes 
investment in micro-lending programs in poor countries.
    In early January of this year two members of the NPCA--Roger 
Landrum and David Hibbard, who both served in the Peace Corps in 
Nigeria--convened a small group to formulate ideas to be conveyed to 
the U.S. Congress on a ``new mandate'' for the Peace Corps, namely how 
to strengthen the Agency and position it for greater effectiveness in 
the post-September 11 world. NPCA leaders, including Pat Reilly, soon 
to become Chair of the NPCA Board of Directors, Ed Crane, NPCA Advocacy 
Coordinator, and I joined this group and hosted it at NFCA 
headquarters. By the time President Bush delivered his State of the 
Union message proposing a doubling of the Peace Corps within five 
years--a proposal we warmly welcomed--our group had reached a consensus 
on basic ideas and had visited Congressional offices, both Republican 
and Democratic, seeking support. Immediately after the State of the 
Union message, our group submitted recommendations at the request of 
offices in the Senate and the House. We have since participated in 
consultations on draft legislation with Congressional staff, including 
staff of this Subcommittee.
    Why has the NPCA pressed for legislation embodying ``a Peace Corps 
Charter for the 21st Century? For the Peace Corps family, September 11 
underlined more than anything else the vital importance to our security 
and well-being of America's positive engagement with the rest of the 
world. No aspect of America's engagement with the world over more than 
40 years has been more positive and effective than the Peace Corps. It 
has had a positive impact on 135 countries already, with many more to 
come. Moreover, 165,000 Americans have served in the Peace Corps over 
41 years. These Americans return still filled with a passion for 
service which they undertake in their own communities in the United 
States, nationally or internationally. The NPCA has just completed this 
past week-end a National Conferrnce celebrating the 40th Anniversary of 
the Peace Corps. The Conference brought over 2000 Peace Corps alumni to 
Washington. The primary question before this Conference was: How can 
the Peace Corps--and Peace Corps alumni--make an even more effective 
contribution to a peaceful world through grassroots development and the 
promotion of harmony and understanding among peoples of different 
ethnicities and religions? Mr. Chairman, we believe that S. 2667 goes a 
long way toward answering this question and that it should be supported 
by a strong bipartisan majority.
Principles for a Mandate for the Peace Corps in the 21st Century
    Having examined an initial draft of legislation and aware that the 
bill was likely to undergo further change, the NPCA Board of Directors 
last month adopted a set of general principles it wanted to see 
reflected in the legislation in its final form so as to enable the 
Peace Corps and its alumni to address new challenges of peaceful, 
grassroots development in the 21st century. These principles are as 
follows:

          1. Support for President Bush's proposal to double the number 
        of Peace Corps Volunteers over five years, in a context of 
        quality programming and volunteer placement and broader, more 
        innovative initiatives of people-to-people development 
        assistance.

          2. The historic independence of Peace Corps, from its 
        inception, from other agencies of foreign policy and from any 
        and all forms of intelligence gathering.

        3. A well-funded Strategic Planning Unit within the Peace Corps 
        with the expertise and authority to guide the expansion of 
        volunteer numbers and programming initiatives with improved 
        reserch evaluation, and forward strategic planning.

          4. A streamlined, bipartisan Advisory Council to the Peace 
        Corps composed of Peace Corps alumni representing a broad range 
        of international knowledge and relevant career expertise.

        5. An RPCV Innovation Fund providing grants to support selected 
        innovative projects and programs proposed by RPCVs, both 
        domestic and international, consistent with the goals of the 
        Peace Corps and experience gained through Peace Corps service.

          6. A restructured ``Crisis Corps'' that better utilizes the 
        career expertise of RPCVs to extend the mission and goals of 
        the Peace Corps into challenging new contexts of peaceful 
        development in the 21st century.

          7. A new era of collaboration between the Peace Corps agency, 
        the National Peace Corps Association, other Peace Corps alumni 
        organizations and initiatives and other international volunteer 
        programs.
NPCA Support for S. 2667
    Mr. Chairman, the National Peace Corps Association considers that 
S. 2667 is consistent with the Mandate principles we have formulated 
and strongly supports its passage. We believe the bill, if enacted, 
would provide a strengthened mandate for the Peace Corps and important 
suggestions about how the Agency can be strengthened. We particularly 
favor the important role envisaged for Returned Peace Corps Volunteers 
in contributing to a strengthened agency. There are 165,000 Americans 
who have served in the Peace Corps. They have derived important 
knowledge and experience from their service overseas, and they have 
brought back a passion to continue to serve, in their own communities 
as well as overseas. And we are pleased that Peace Corps Director Gaddi 
Vasquez has indicated a strong desire to draw on the insight and 
talents of RPCVs in moving the Peace Corps forward.
Funding Projects of Peace Corps Alumni
    In closing I would like to make a few comments on Sec. 10 
concerning the Peace Corps Innovation Fund. The National Peace Corps 
Association has been promoting service initiatives of the kind 
envisaged for the proposed Fund for more than 15 years. In 1986 we 
first awarded the Sargent Shriver Award for Outstanding Humanitarian 
Service. In the intervening years this award has been given to Peace 
Corps alumni who have done such things as establish a family clinic in 
Appalachia, create an eye clinic in Haiti, carry on reconciliation 
between warring ethnic groups in the Balkans. This year the award was 
given to Molly Melching, who through her Senegalese NGO Tostan, has 
brought about decisions in hundreds of Senegalese villages to halt the 
practice of female genital cutting. We also confer the Loret Miller 
Ruppe Award annually to an NPCA affiliate groups for group service 
projects. In recent years the Ruppe Award has been given for such 
projects as a mentoring program at a high school in inner-city Chicago, 
to include a carefully tailored three week visit to West Africa for 
several students; conflict resolution work in civil war-ravaged Sierra 
Leone; and efforts by Ethiopia and Eritrea Returned Volunteers to 
encourage a peaceful resolution of the Ethiopia-Eritrea war. We not 
only encourage such projects, but we are beginning to provide funding 
for them. The NPCA has just launched a program of Continuation of 
Service Grants, seed money to be made available for projects undertaken 
domestically or internationally by our affiliate groups under a set of 
criteria endorsed by our Board of Directors. During our Conference, 
which just ended, we raised $10,000 to support the Continuation of 
Service grants.
    In anticipation that this legislation will be enacted, the NPCA is 
proceeding with planning for organizing a separate non-profit 
corporation which would meet the criteria established in Section 10. We 
expect to draw on the talents of our ``new mandate'' group led by Roger 
Landrum and Dave Hibbard and on others with experience in particular 
project areas and in project design and evaluation. We anticipate that 
the new entity would give emphasis to projects for educating Americans 
about the developing countries; for AIDS education; for community, 
national and international service, including youth service programs; 
and for conflict resolution.
    Mr. Chairman, the National Peace Corps Association supports the 
passage of S.2667 ``A Peace Corps Charter for the 21st Century.'' Thank 
you.

    Senator Dodd. Thank you very much. You did say in 44 
states, you had that many affiliate organizations. So we look 
forward to having cosponsors from all 44 states. And I tell you 
this much, I can promise you this, when you were here and I 
know you had an advocacy day on Thursday, I guess it was----
    Mr. Smith. That is correct, Mr. Chairman.
    Senator Dodd [continuing]. And I can tell you I would like 
these folks in town on every bill all the time. I ended up with 
more cosponsors in one day than any other bill that I can think 
of that I have offered up, and I thank the members of the 
National Peace Corps Association who went around and knocked on 
doors. It was remarkable the number of colleagues of mine who 
called and said, ``Put me on the bill.''
    So we thank you immensely for that work. We may bring you 
back to town another time for that kind of----
    Mr. Smith. Well, 200 of our members came specifically for 
that.
    Senator Dodd. Well, they did a good job, I can tell you.
    Ms. Ferris, how are you?
    Ms. Ferris. I am good. How are you?
    Senator Dodd. Good. Nice to see you.
    Ms. Ferris. Thank you.
    Senator Dodd. Welcome.
    Ms. Ferris. Thank you.

   STATEMENT OF BARBARA A. FERRIS, PEACE CORPS VOLUNTEER IN 
  MOROCCO (1980-1982), WOMEN IN DEVELOPMENT COORDINATOR (1987-
    1993), CO-FOUNDER, THE PEACE CORPS FUND, WASHINGTON, DC

    Ms. Ferris. Mr. Chairman and Congressman Shays, I want to 
thank you for the opportunity to testify today in support of 
section 10 of the legislation of the Peace Corps Charter for 
the 21st Century Act, which provides $10 million to RPCVs to 
implement the third goal.
    I am a return Peace Corps volunteer from Morocco, where I 
taught English as a second language. I served for 5 years as 
the Women in Development director for the Peace Corps, 6 years 
as a member of the board of directors of the National Peace 
Corps Association, and I chaired the 40th anniversary task 
force for the celebration, cochaired the Committee for the 
Future of the Peace Corps, and now I am the cofounder of the 
Peace Corps Fund.
    I am also the founder and the president of the 
International Women's Democracy Center, which trains women 
outside the United States in the technical skills of how to run 
for elected office, how to engage in building their civil 
society, and how to lobby their legislatures.
    I want to applaud you and this institution for finally 
designating resources to support return Peace Corps volunteers 
who want to implement the third goal in their communities, as 
stated in the Peace Corps Act of 1961. Bill Moyers said that 
Peace Corps volunteers carry two passports, one stamped 
American and one stamped human being.
    Last weekend, as Dane said, nearly 2,000 people from the 
Peace Corps family gathered in Washington to lead and attend 
workshops, to celebrate the music and traditions of the 
countries where we lived and worked as Peace Corps volunteers, 
to honor those who died in service, and to support the very 
organizations like IWDC that continue to embrace the challenges 
of service.
    The Peace Corps Fund was created at the urging of thousands 
of return Peace Corps volunteers and staff, who formerly and 
forcefully support the third goal of the Peace Corps Act. I am 
here today as cofounder of the fund, a nonprofit organization 
established in the District of Columbia to provide grants up to 
$100,000 to returned Peace Corps volunteers who want to carry 
out the third goal in their communities in the shapes of 
programs, projects, and activities.
    The fund brings together an extraordinary team of returned 
Peace Corps volunteers with demonstrated skills in nonprofit 
management, fundraising, grants management, budget and finance, 
foundation relationships, communications, public relations, 
technology and vision combined with an extensive network that 
reaches to every corner of our country and the farthest corners 
of the world.
    In order to enhance efficiency and keep costs down, the 
Peace Corps Fund will take advantage of the latest technology 
and facilitate our grant making on line through its Web site, 
www.asknot.org. The online grant making process includes 
application, awards of grants, project reporting, and 
evaluations.
    Individuals representing three generations of the Peace 
Corps family, including one of the early architects of agency 
and a recently returned Peace Corps volunteer from Asia, 
incorporated the fund. Many of the early architects of the 
Peace Corps, Members of Congress, members of the National Peace 
Corps Association, and numerous individuals and organizations 
committed to sustainable development support this innovative 
idea.
    The fund does not have dues paying members. It does not 
publish a magazine. It does not have programs and does not 
engage in peacemaking activities around the world. The fund is 
open to support all return volunteers who want to do third goal 
activities. It will act as a fiscal agent to provide grants to 
do so. And my colleague, John Coyne, will provide a more 
detailed example as to the specific projects that the fund 
could support.
    For the past 41 years, RPCVs have been bringing the world 
back home in small ways with limited resources, as you stated 
earlier. Creating speaker bureaus for their local schools, 
hosting forums to discuss culture and tradition of countries 
where they served, teaching English to immigrant parents with 
children in local schools, and a multitude of other activities 
that continue to share what we have learned and to carry on a 
tradition of service here at home.
    While many RPCVs carry their unique experiences gained 
around the world into classrooms and boardrooms, thousands have 
become leaders in corporations, educational institutions, 
journalism, international organizations and here in our 
Nation's political leadership, both at the state and national 
levels.
    Increasing the resources available to RPCVs will have a 
significant impact on increasing understanding among Americans 
about the people, places, cultures, and traditions of the 
nations where we lived and worked as volunteers.
    While I could spend days speaking about the depth and range 
of the transforming projects initiated by RPCVs in their 
communities with little or no resources, I do want to share 
with this committee the 13-year-old calendar project, which I 
gave each of you, created by the RPCVs of Wisconsin. And it is 
their collective effort to bring the world back home.
    As a former teacher, this annual calendar is one of the 
most powerful development tools I have ever seen. It not only 
lists all the holidays from the Peace Corps countries every 
month, it provides spectacular photos taken by RPCVs of one 
nation a month with a description of a tradition or event that 
highlights the culture of the country. At the moment, they 
produce nearly 35,000 of these. Imagine the power of this 
teaching tool if our Nation's schoolchildren were given one of 
their very own.
    It is a very cost-effective, efficient, simple way for kids 
not only to learn every day about different holidays and 
cultures, but every month about a different country and 
tradition. More importantly, I believe it would give students a 
chance to aspire and dream about exploring places far from 
home.
    September 11 changed us forever. And we all continue to 
wrestle with the injustices of terrorism. One way to fight 
terrorism is to learn about and engage in the rest of the 
world. In 1961, when Sarge Shriver went to Ghana to lay the 
foundation for the first volunteers to serve there, the 
President of Ghana agreed to host Americans on the condition 
that he send the best and the brightest.
    The 165,000 RPCVs who have served in over 135 nations 
speaking 300-plus languages for the past four decades, giving 
300,000 years of service are, in my opinion, the best and the 
brightest.
    Among the outstanding moments at the conference this past 
weekend, including the motorcycle, Sarge Shriver said the Peace 
Corps stands for everything we believe in America, that we care 
about the people of the world, that Peace Corps is dedicated to 
the goal of permanent peace.
    Mr. Chairman, I speak in strong support of the Peace Corps 
Charter for the 21st Century Act, and particularly section 10, 
which provides $10 million for RPCVs to carry out their goal 
activities.
    Thank you.
    [The prepared statement of Ms. Ferris follows:]

 Prepared Statement of Barbara Anne Ferris, RPCV, Morocco, Co-Founder, 
                          the Peace Corps Fund

    Mr. Chairman, Members of this Committee, I thank you for the 
opportunity to testify today in support of the legislation of the Peace 
Corps Charter for 21st Century Act. I am a Returned Peace Corps 
Volunteer from Morocco where I taught English as a second language. I 
have served for 5 years as the Women in Development Director for the 
Peace Corps, for 6 years as a member of the Board of Directors for the 
National Peace Corps Association, I chaired the 40th Anniversary 
Celebration of the Peace Corps, co-chaired of the Committee for the 
Future of the Peace Corps and am the co-founder of the Peace Corps 
Fund. And now I am the founder and president of the International 
Women's Democracy Center, which trains women outside the United States 
in the technical skills of how to run for elected office, how to engage 
in building their civil society, and how to lobby their legislatures.
    I want to applaud you and this institution for finally designating 
resources to support Returned Peace Corps Volunteers who want to 
implement the 3rd goal of the Peace Corps as stated in the Peace Corps 
Act of 1961--to educate Americans about the people, places and 
countries where we lived and worked as Peace Corps Volunteers. Bill 
Moyers said that Peace Corps Volunteers carry two passports--one 
stamped American and one stamped human being.
    Last weekend, nearly 2,000 people from the Peace Corps family 
gathered in Washington to lead and attend workshops, celebrate the 
music and traditions of the countries where we lived and worked as 
Volunteers, honor those who died in service, and support the very 
organizations that continue to embrace the challenges of service.
    The Peace Corps Fund was created at the urging of thousands of 
Returned Peace Corps Volunteers and staff who formally and forcefully 
support the Third Goal of the Peace Corps Act of 1961, I am here today 
as co-founder of The Peace Corps Fund, a non-profit organization 
established in the District of Columbia to provide grants up to 
$100,000 to Returned Peace Corps Volunteers who want to carry out the 
3rd goal in their communities in the shape of programs, projects and 
activities.
    The Peace Corps Fund brings together an extraordinary team of 
Returned Peace Corps Volunteers with demonstrated skills in non-profit 
management, fundraising, grants management, budget and finance, 
foundation relationships, communications, public relations, technology 
and vision combined with an extensive network that reaches to every 
corner of our country and the farthest corners of the world.
    Individuals representing three generations of the Peace Corps 
Family--including one of the early architects of the Agency 
incorporated the Peace Corps Fund and a recently returned Peace Corps 
Volunteer. Many of the early architects of the Peace Corps, Members of 
Congress, members of the National Peace Corps Association, and numerous 
individuals support the Peace Corps Fund and organizations committed to 
sustainable peace and development throughout our global community. In 
order to enhance efficiency and keep costs down, the Peace Corps Fund 
will take advantage of the latest technology and facilitate grant 
making on line through its web site--www.AskNot.org The online grant 
making process includes application, awards of grants, project 
reporting and evaluations.
    The Peace Corps Fund does not have dues paying members, does not 
publish a quarterly magazine, does not have programs and does not 
engage in peace making activities around the world. The Fund will be 
open to support all Returned Peace Corps Volunteers and the fund will 
simply act as a fiscal agent to provide grants to RPCVs and RPCV groups 
for 3rd goal activities. My colleague John Coyne will provide a more 
detailed example as to the specific project the Fund could support.
    For the past 41 years, RPCVs have been bringing the world back home 
in small ways with limited resources. Creating speaker bureaus for 
their local schools, hosting forums to discuss culture and tradition of 
countries where they served, teaching English to immigrant parents with 
children in local schools and a multitude of other activities that 
continue to share what we have learned and to carry on a tradition of 
service here at home. While many RPCVs carry their unique experiences 
gained around the world into class rooms, board rooms, thousands of 
RPCVs have become leaders in corporations, educational institutions, 
journalism, international organizations and our nation's political 
leadership both at the state and national levels. Increasing the 
resources available to RPCVs will have a significant impact on 
increasing the understanding among Americans about people, places, 
cultures, religions and traditions of the nations where we lived and 
worked as Volunteers.
    While I could spend days speaking about the depth and range of 
transforming projects initiated by RPCVs in their communities, I want 
to share with this committee the 13-year-old calendar project created 
by the RPCVs of Wisconsin--as their collective effort to bring the 
world back home. As a former teacher, the annual calendar is one of the 
most powerful development education tools I have ever seen. It not only 
lists all the holidays from all the Peace Corps countries every months, 
it provides spectacular photos taken by RPCVs of one nation a month 
with a description of a tradition or event that highlights the culture 
of the country. At the moment, they produce nearly 35,000 of these 
calendars. Imagine the power of this teaching tool if our nation's 
school children were given one for their very own. It is a very cost 
effective and efficient, simple way for kids to not only learn every 
day and about different holidays and cultures, but every month, about a 
different country and tradition. More importantly, it would give 
students a chance to aspire and dream about exploring other places.
    September 11 changed us forever and we all continue to wrestle with 
the injustices of terrorism. One way to fight terrorism is to learn 
about and engage in the rest of the world. In 1961, when Sarge Shriver 
went to Ghana to lay the foundation for the first Volunteers to serve 
there, the President of Ghana agreed to host Americans on the condition 
that he sent the best and the brightest. The 166,000 Returned Peace 
Corps Volunteers who have served in over 130 nations speaking 300+ 
languages for the past 4 decades giving 300,000 years of service are in 
my opinion, the best and the brightest.
    Among the many outstanding moments at the conference this past 
weekend, Sarge Shriver said that Peace Corps stands for everything we 
believe in America--that we care about the people of the world that 
Peace Corps is dedicated to the goal of permanent peace.
    Mr. Chainnan, I speak in strong support of the Peace Corps Charter 
for the 21st Century Act and Section 10 which provides $10 million 
dollars for RPCVs to facilitate 3rd goal activities.
    Thank you.

    Senator Dodd. Thank you, Ms. Ferris.
    John, thank you for being here. Thank you for the wonderful 
work you are doing, as well, with Barbara.

  STATEMENT OF JOHN COYNE, PEACE CORPS VOLUNTEER IN ETHIOPIA/
   ERITREA (1962-1964), NEW YORK CITY REGIONAL MANAGER (1994-
      2000), CO-FOUNDER, THE PEACE CORPS FUND, PELHAM, NY

    Mr. Coyne. Thank you, Mr. Chairman. I have prepared my 
remarks that I have submitted. So I will just be brief.
    Congressman Shays, thank you very much for the honor, Mr. 
Chairman, to appear before you. And I, too, support the Peace 
Corps Charter for the 21st Century. I do so--I bill myself as 
the oldest living former Peace Corps volunteer, because in 
October 1960 I happened to be on the campus of the University 
of Michigan when President Kennedy introduced the idea. And 
from Kalamazoo, Michigan, I joined the Peace Corps in 1962 and 
went to Washington, where one of the first people I met was 
Paul Tsongas. And our Director was, as you know, the former 
Senator Harris Wofford from Pennsylvania.
    And late in the session we went to meet the President on 
the White House lawn just before we left for Ethiopia. And he 
said then, ``I hope you will regard this Peace Corps tour as 
the first installment in a long life of service, as the most 
exciting career in the most exciting time, and that is serving 
this country in the sixties and the seventies.''
    Well, here we are in a new century, and we are still trying 
to fulfill the third goal. We are still trying to bring the 
world back home.
    In the 1980s, to fulfill the third goal of the Peace Corps, 
I started with another Peace Corps volunteer from Ethiopia, 
Marian Haley Beil, a newsletter to promote and share the 
writings of Peace Corps writers. Three years ago, we also 
established a Web site, peacecorpswriters.org. We believe that 
the writings of returned Peace Corps volunteers, all their 
novels, short stories, essays, and poetry are a positive way of 
educating America about the world, an essential third goal 
activity.
    The poetry and prose is a literary bridge that links the 
cultures of the world. The writings of Peace Corps volunteers 
provide America a chance to learn about Peace Corps countries 
that they will never have the opportunity to visit. Today, on 
our Web site, we have listed over 500 writers who have 
published more than 1,200 books, many of which are based on 
their Peace Corps experience.
    All this work on the newsletter, as with the site, 
continues to be done on a volunteer basis. We believe that we 
are promoting service by our own example of serving the Peace 
Corps community.
    It was during the 1960s when I was on the staff of the 
Peace Corps in New York that I edited a series of essays 
written by Peace Corps writers, essays that I had previously 
collected and published into a paperback book. There have been 
three of them now. These stories by former volunteers have been 
an extremely effective recruitment tool for the agency because 
they give a picture in the words of the volunteers in well-
written language of what it is like to actually live in the 
Third World and to be a Peace Corps volunteer.
    I was also recently asked, thanks to the Congressman's 
wife, to help her with the Paul D. Coverdell World Wise Schools 
production of essays in a new textbook called, ``Voices from 
the Field,'' to be used for language arts teachings in grades 7 
through 12.
    Mr. Chairman, these are just two examples of what can be 
done with the writings of people who have served our Nation as 
volunteers. I would like to add in addition to that, on my own 
and around the 40th anniversary I went out and I sought a 
foundation grant from the Shulman Foundation of $25,000 so that 
I could get Peace Corps writers to read across the country in a 
series of locations, classrooms, libraries, community centers. 
This is still going on. We started with Harvard University in 
Cambridge, and our next one will take place in Venice, 
California, at the Venice Public Library. We will have several 
volunteers, former volunteers reading, and also talking about 
their Peace Corps experience.
    This $25,000 grant could be expanded under something like 
the section 10 of the new act in the sense that we can bring 
volunteers to many, many more communities if we only had a 
limited amount of resources to do it.
    I believe at this moment in history we can provide what we 
call, or what Mark Gearan actually called, the domestic 
dividend from our Peace Corps service. We can share the lessons 
we learned overseas and working in another culture, when we can 
help people here understand what the whole world is like and 
what it is like to be a Peace Corps volunteer.
    In closing, Mr. Chairman, let me offer the perspective of 
just one Peace Corps volunteer. The core of the Peace Corps is 
about service, service to our country and service to the fellow 
citizens of the world. It is a simple but very powerful 
concept, one that has stood the test of time and one that in my 
view has helped strengthen the ties of cross-cultural 
understanding between Americans and the people of the world.
    This sort of understanding has never been more important 
than it is today. And as return volunteers, we have a 
responsibility to share with our fellow Americans what we have 
learned overseas, all in the hope of making the world a better, 
more peaceful place.
    This legislation will help us do our job as returned 
volunteers. With your help and support we will continue to help 
bring the world back home. Thank you very much for your time.
    [The prepared statement of Mr. Coyne follows:]

  Prepared Statement of John Coyne, RPCV, Ethiopia, Co-Founder, Peace 
                               Corps Fund

    Mr. Chairman, members of the Subcommittee, I am deeply honored to 
appear before you today and offer testimony about the Peace Corps 
Charter for the 21st Century Act. I join many other Returned Peace 
Corps Volunteers, or RPCVs, as we refer to ourselves, in thanking you 
for working to strengthen the Peace Corps at this important time in the 
agency's history and our country's history.
    In October of 1960 when John F. Kennedy was campaigning for the 
presidency, he spoke after midnight on the campus of the University of 
Michigan and introduced the idea of a Peace Corps. It was a moment in 
time that defined four decades of public service by young and older 
Americans.
    I was one of the students on campus that night swept up by John F. 
Kennedy's challenge to go to Asia, Africa, or Latin America and 
contribute a few years to my country. I had never thought of leaving 
the U.S. before. I would never even have thought of leaving my hometown 
of Kalamazoo, Michigan. Now I wanted to be part of the New Frontier. I 
wanted to do something for my country.
    In the summer of 1962, I went to Washington to train at Georgetown 
University with the first group of Volunteers to Ethiopia.
    On our first night of training, all of us Ethiopia-bound Volunteers 
went en masse for a long walk on the C&O Canal. Leading us was Supreme 
Court Justice William O. Douglas who had recently saved that canal by 
having it designated a historic monument.
    At the end of the two miles we stopped for hot dogs, beer, and an 
impromptu talk from a lanky kid named John D. Rockefeller IV. I am not 
sure if Senator Rockefeller remembers that evening or not, but he was 
just back from studying in Asia and was working at the Peace Corps 
headquarters with Sargent Shriver.
    Towards the end of our training we went to meet President Kennedy 
in the Rose Garden. Leading us was Harris Wofford, then Country 
Director for Ethiopia and later, as you know, U.S. Senator from 
Pennsylvania. Also in our group was another young Volunteer like 
myself, the late Senator from Massachusetts, Paul Tsongas.
    On the White House lawn, President Kennedy told us, ``I hope that 
you will regard this Peace Corps tour as the first installment in a 
long life of service, as the most exciting career in the most exciting 
time, and that is serving this country in the sixties and the 
seventies.''
    Well, here it is in a new century and those of us who responded to 
President Kennedy's challenge of life long service are still trying to 
fulfill the Third Goal of the Peace Corps to ``bring the world back 
home.''
    In 41 years of service in the developing nations of the world, the 
Peace Corps has come to represent the best that America has to offer 
the worid. It is also one of America's best bridges of friendship to 
the peoples of the world. We have touched the lives of people in 135 
countries over these last four decades. We have made lifelong friends, 
and to an amazing degree, changed the global perception of America by 
living among, and with the peoples of the world. We have changed the 
face of the ``ugly American'' in many communities who have never had 
the opportunity to see, to touch, and to know an American. And we have 
come home to America and in our daily lives, within our extended 
families, and our communities, we have taught America about what we saw 
and, more importantly, learned from other people and cultures.
    Our impact here in America has often been very personal.
    In the 1980s, to fulfill this Third Goal of the Peace Corps of 
bringing the world vividly home to America, I started with another 
Returned Volunteer from Ethiopia, Marian Haley Beil, a newsletter to 
promote and share the writings of Peace Corps Volunteers. Three years 
ago, we expanded this effort by developing a web site, 
peacecorpswriters.org
    We believe that the writings of Returned Peace Corps Volunteers, 
all their novels, short stories, essays and poetry are a positive way 
of educating Americans about the world, an essential Third Goal 
activity. This poetry and prose is a literary bridge that links the 
cultures of the world. The writings of Peace Corps Volunteers provide 
America a chance to learn about Peace Corps countries that they will 
never have the opportunity to visit. Today, on our online bibliography, 
we have over 500 writers who have published more than 1,200 books, many 
of which are based on their experiences overseas.
    All this work on the newsletter--as with the site--continues to be 
done on a volunteer basis. We believe that we are promoting service by 
our own example of serving the Peace Corps community.
    It was during the 1990s that I also edited a series of essays 
written by Peace Corps Volunteers--essays about their Peace Corps 
experience--that I had first published in our newsletter and turned 
them into a paperback book. These stories by former Volunteers have 
been an extremely effective recruitment tool for the agency.
    I also was recently asked by Paul D. Coverdell Worldwise Schools of 
the Peace Corps to find essays for their new classroom textbook, Voices 
from the Fields, to be used by language arts teachers in grades 7-12.
    Mr. Chairman, these are just two examples of what can be done with 
the writings of people who have served our nation as Peace Corps 
Volunteers. There are many other projects and programs that RPCVs can 
do here at home to further the Third Goal of the Peace Corps Act. It is 
my hope that the new Peace Corps bill will make it possible for me to 
continue the work of peacecorpswriters.org and make the prose and 
poetry of Peace Corps writers accessible to students and older 
audiences across the United States.
    At this critical moment in our history, we can deliver a ``domestic 
dividend'' from our Peace Corps service. We can share the lessons we 
learned living and working in another culture. We can help our country 
understand the world by writing about the people we knew as friends.
    Mr. Chairman, in closing, let me offer the perspective of just one 
of more than 166,000 people who have served as Peace Corps Volunteers. 
At its core, the Peace Corps is about service--service to our country, 
and service to our fellow citizens of the world. It's a simple but very 
powerful concept, one that has stood the test of time, and one that, in 
my view has helped strengthen the ties of cross-cultural understanding 
between Americans and the people of other countries.
    This sort of understanding has never been more important than it is 
today, and as returned Volunteers, we have a responsibility to share 
with our fellow Americans what we have learned overseas, all in the 
hope of making the world a better, more peaceful place.
    This legislation will help us do our jobs as returned Volunteers. 
With your help and support, we can continue to help bring the world 
back home.
    Thank you very much.

    Senator Dodd. Thank you, John, very, very much; and, 
Barbara, for the tremendous work you are doing with the fund. 
My compliments to you and look forward to any ways we can be 
helpful to it. It is a very worthwhile endeavor.
    I am just curious, Dane, over the weekend I had the 
opportunity to talk to a couple of people who have been up on 
the Hill talking about the pending, well, proposed, 
legislation. I wonder if you might--I know there was an 
opportunity to discuss it in some of the workshops. Can you 
give us sort of a flavor of what the reaction was among the 
participants in last week's conference to the bill?
    What were some of the comments, criticisms, whatever you 
think may be appropriate to share with the committee?
    Mr. Smith. Mr. Chairman, as you know, during advocacy day, 
a major aspect of what the returned volunteers and other 
members of our association were doing as they met with their 
Members and Representatives on the Hill, was to promote this 
legislation. And the effect, as you said, was quite 
extraordinary. And I understand that a number of sponsors were 
added as a result of their activities.
    In addition, we designed the conference to have as one of 
its major forums the future of the Peace Corps in the 21st 
century. And that panel, which included Deputy Director Jody 
Olsen from the Peace Corps, as well as Janice O'Connell from 
your committee staff, and Dave Hibbard, who was one of the 
organizers of the mandate group that I discussed, collected a 
very large number of people in the hall. It was one of our 
best-attended workshops. Ken Hill also spoke as a former chief 
of staff of the Peace Corps.
    So we had a tremendous response, which continued during the 
course of the conference, and a lot of very positive reaction 
from members. And a number of our affiliate groups have signed 
on. We expect many more of them will do so in the coming weeks.
    Senator Dodd. Well, great. That is very helpful. Share with 
me, if you would--and all three of you comment on this--if you 
have any comments at all about the bill, anything more than 
what Dane has added in terms of the weekend. Again, the 
doubling the size of the Peace Corps, the President has 
advocated this as, I think, a general sense that this is 
needed. Obviously, there are concerns about the adequate 
resources to support the increased number of volunteers.
    But I wonder if you might just share with us your views, 
Barbara, we will begin with you, just on this notion.
    Ms. Ferris. I think I agree with what I think you have 
heard before. It is really important that volunteers have jobs 
and not be sent out to the field because it is such a 
transition when you are a volunteer to go out to the field and 
stand there with nothing, and not having a job to find is 
difficult. Although I do not think Peace Corps volunteers join 
the Peace Corps for a whole lot of structure anyway. And they 
are very innovative, creative, and flexible people. And we all 
know this. You get 10 volunteers in a room, and you have 11 
opinions.
    So there is a strength in the American, I think, who does 
sign up to be a volunteer. I think it is imperative that 
volunteers have jobs and that the security and safety of the 
volunteers is also considered. I think it is important, too, 
that the relationship with the countries where we are planning 
to enter be established and that there is an opportunity for a 
Peace Corps volunteer to have a job.
    You know, there are countries that are very well developed 
that may be taking jobs away from host country nationals if you 
put volunteers in. And there are other places where volunteers 
are desperately needed. So I think it has to be done in a 
thoughtful way. For those of us who have had the experience, 
obviously it was life transforming. And you want as many people 
as possible to have that opportunity. But I think it has to be 
done in a very thoughtful way.
    Senator Dodd. John.
    Mr. Coyne. Speaking from my experience in 5 years in 
recruitment in the nineties with the Peace Corps, several 
things struck me about that. One was that we came out of the 
era--we joined because of John F. Kennedy. But to most of these 
new recruits, you know, he was a figure in history. But when I 
talked to them and asked them, well, when did you decide to 
become a Peace Corps volunteer and what was the moment, 
invariably it was when they were in middle school. They had a 
teacher who had been a Peace Corps volunteer who brought her or 
his slides in and talked about it or told tales about it. Or 
they saw a commercial on television; and they decided that when 
they grew up, they were going to become a Peace Corps 
volunteer.
    So our recruitment efforts really should be geared toward, 
I think, reaching down into this group and build toward the 
future. Because of the 5-year rule, we think only in short 
terms and quick hits and do something before we leave. But I 
think we should restructure the recruitment cycle in that 
sense.
    The next important thing, I have a son going off to college 
in the fall. And I realize how expensive all of this is. And it 
is certainly true, we lose an awful lot of volunteers, 
potential volunteers, because they just cannot afford to go 
into it.
    Senator Dodd. Yes.
    Mr. Coyne. And if we could figure out a way to, like the 
National Service does, get them into it and relieve some of 
their debt, this would be a tremendous help.
    Senator Dodd. One of the things, you know, we all heard 
this, and it is a constant source of debate and discussion 
about the role of the Peace Corps and its service. And I know 
when I left the project in my community in the Dominican 
Republic, I think I was, what was it, maybe the third, second 
or third, volunteer in this community. And there was concern 
about exhaustion a little bit of the Peace Corps. So there was 
some talk, obviously, of giving the community a break for a 
period of time and to see what would happen in a sense after 
having gone through 6 or 7 years of a Peace Corps experience.
    And that goes to the issue of whether or not we are 
becoming more of an aid agency or people-to-people program. And 
there is a sense in many communities that after they have had 
their fourth or fifth English major who brings some wonderful 
attitudes, or skills even, to some degree, there is a level at 
which they are looking for more. They want something more than 
just the people-to-people experiences.
    And I am wondering how that--first off, do you agree with 
that? But second, how that can be accommodated if we are 
expanding the numbers to such a degree? I know there are a lot 
of places in the world people can be, but there is obviously 
security and other such considerations that narrow the scope 
worldwide to some degree, and then being able to service 
volunteers in such a way that they are going to be effective.
    I wonder if you might address those points.
    Mr. Coyne. Well, I was an associate director in Ethiopia 
after I was a Peace Corps volunteer. And when I went in as a 
volunteer, they would not allow women to leave the major 
cities. And this changed rapidly over the year. But this is a 
big concern in terms of recruitment.
    When I was out as a volunteer, I think the women were 23 
percent. They are now approximately 64, maybe 65, percent. So 
there is a security issue on that part. But recently I looked 
at a map of Ethiopia. And we had served in over 200 different 
villages, towns, and places I had never heard of. So there is 
an endless stretching of the possibilities of going into new 
countries.
    I think that it is possible to take a BA generalist, who I 
think is still the strong volunteer, and prepare them as they 
did years ago in India with checking identification projects, 
to do a specific skill for a period and also do the other part 
of it that Mark has alluded to earlier about being on the 
ground.
    President Toledo talked about this. You cannot replace this 
touching another person. This is a key factor, I think, in the 
experience, not only for the volunteer who comes home and talks 
about it, but also for the country that there is an individual, 
there is a family, there is a community, that knows America as 
a person, as an individual.
    Senator Dodd. Good points. The independence of the Peace 
Corps, we have talked about it here today. Any of you have any 
concerns about the USA Freedom Corps and its relationship with 
the Peace Corps? Dane, do you want to start.
    Mr. Smith. We are absolutely committed to supporting the 
independence of the Peace Corps from the foreign policy 
agencies and intelligence. I frankly do not see a problem with 
the White House encouraging people to join the Peace Corps. But 
the continuing independence and autonomy for the Peace Corps, 
particularly from intelligence gathering or from any threat 
that it be absorbed into the State Department or USAID, 
continues to be a matter that concerns the NPCA membership a 
great deal.
    Senator Dodd. John.
    Mr. Coyne. I think that I believe it will not become a 
factor in terms of the independence. I do know that if it were 
to become involved in the Freedom Corps, that it would be an 
interesting response from the returned Peace Corps community.
    Senator Dodd. That is a diplomatic way of answering, I 
guess.
    Ms. Ferris. In earlier testimony, it is my understanding 
that on the Freedom Corps' Web site there is a link to the 
Peace Corps where you can find out how to do it. I guess my 
question when I heard that was: How many hits does the Peace 
Corps site get on its own and how many hits does this Freedom 
Corps get and links go to the Peace Corps site? My guess is 
that, and I think it was you who mentioned it, the Peace Corps 
is far better known than the Freedom Corps. And I would be 
interested to know those statistics.
    I, like my colleagues and everybody else in this room, am 
absolutely adamant that it remain separate, because a volunteer 
really does struggle when you go to a site and you are an 
American and the first question is, ``Are you CIA?'' And so I 
do not think that the Peace Corps needs one more thing to deal 
with in terms of volunteers adjusting to their sites and doing 
a good job at their site, with having to worry about 
perception. And we all know that perception becomes reality.
    Senator Dodd. Chris.
    Congressman Shays. Again, Senator Dodd, thank you for 
allowing me to sit in the front rather than in the back. And 
one of the reasons I wanted to be here was to hear from three 
of my colleagues who I think are just extraordinary people. And 
so it is nice to be able to look at their faces and listen to 
them and say to you that I have no doubt about this one thing. 
And I would want to say it to all three of you, because I have 
checked 100 different ways to make sure this is true.
    The Peace Corps is better known. But the President is 
trying to establish a knowledge of people on where they can 
contact to volunteer for service. And you want the Peace Corps 
on that Web site. You want, when they turn to the Freedom 
Corps, because the Freedom Corps will become better and better 
known, that there is a wonderful opportunity of service 
overseas, and that is the Peace Corps.
    So you want the Freedom Corps involved in terms of being 
able to know and send people to this site. But that is the 
extent of it. And it is not controlling. It is not management. 
And I was thinking, and maybe it was you, John, who said it, 
you know, if it ever was different, there would be all 160,000 
of us in an uproar. So I smile, thinking, you know, what better 
protection than that?
    But obviously, you have Members of Congress who are going 
to be watching it as well. But we have made our point to them. 
I guess what I want you to know is you have expressed a 
concern. Chris and I have made our concerns known to the 
administration. They have responded that, you know, please 
relax on this one. This is not--this is not your concern.
    And just to say I have lots of respect for all of you. And 
I will just end by saying that, you know, when you said, 
Barbara, if there are 10 people, there are 11 opinions. But, 
you know, you did not finish the story. I find with Peace Corps 
volunteers, when you put us all in a room, we get consensus 
pretty early. There are lots of different opinions. We express 
them. But we find consensus pretty well. It is one of the 
skills, I think, that I learned from my Peace Corps experience.
    The other thing I would say to you is that one of the 
dangers in the Peace Corps, it may have been true in your case, 
but in Fiji where I was, in the urban areas there were a number 
of us. And we liked each other so much that there was always 
this danger we did not just want to be with each other, because 
we all had certain goals and certain interests that were very 
compatible. And we sometimes had to remind ourselves, you know, 
we cannot be too cliquish, you know, as Peace Corps volunteers 
overseas and need to make sure we are reaching out to the 
people we work and live with.
    So thank you all for your participation. And, Chris, I want 
you to know that this still feels a little weird to be over on 
this side. And thank you for giving me this very weird 
experience.
    Senator Dodd. We know what you House Members think of 
Senators.
    Congressman Shays. No one else laughed. How come?
    Senator Dodd. Well, I thank you, Chris, for being here.
    Congressman Shays. Thank you. It is an honor to be with 
you.
    Senator Dodd. And it was a great job. As I say, in 
Connecticut we were the only state with two former Peace Corps 
volunteers, I believe, in the Congress. And we are bicameral 
and bipartisan in that sense. So it is a pleasure to have you 
over here.
    I served alone in the Peace Corps. And there were times 
when I envied the volunteers who were clustered with each 
other. But then again, in the long run, I much preferred the 
situation where I was in the sense of really getting into it. I 
had no choice. But you really had to learn the language and the 
culture and so forth to get along. And that was one of the 
advantages of being alone as a volunteer.
    But in many places, that does not work. And the importance 
of having volunteers on joint missions is extremely valuable.
    Congressman Shays. I wonder if you would allow me to note 
just for the record, I got concerned when I saw the Director 
stand up and all the staff stand up, that all the staff came 
back to listen to our colleagues as well. And I would like the 
record to show you still have your Deputy Director here and 
your chief of staff and others who wanted to listen to what our 
colleagues had to say.
    Senator Dodd. Very good. We note the presence of the Peace 
Corps staff in the room. We thank them for being here. I thank 
all three of you for your work. And we look forward to your 
continuing effort.
    And, Dane, you have some work to round up the rest of these 
cosponsors on this bill. So the ball is in your court.
    Mr. Smith. We will get at that.
    Senator Dodd. This hearing will stand adjourned.
    [Whereupon, at 4:30 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the chair.]

                                   - 

</pre></body></html>
